<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2018

                              ----------                              


                        TUESDAY, APRIL 25, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:18 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lindsey Graham (chairman) 
presiding.
    Present: Senators Graham, Moran, Daines, Leahy, Shaheen, 
Coons, Murphy, and Van Hollen.

                   UNITED STATES ASSISTANCE FOR EGYPT

STATEMENTS OF:
        MICHELE DUNNE, DIRECTOR AND SENIOR FELLOW, MIDDLE EAST PROGRAM, 
            CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE
        HON. ELLIOTT ABRAMS, SENIOR FELLOW FOR MIDDLE EASTERN STUDIES, 
            COUNCIL ON FOREIGN RELATIONS
        HON. TOM MALINOWSKI, FORMER ASSISTANT SECRETARY OF STATE FOR 
            DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT OF 
            STATE

              OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. The hearing will come to order. We have a 
lot of our Democratic colleagues in transit. We will get 
started. Senator Leahy is going to be a little late, but as 
soon as he arrives, we will let him speak.
    The hearing today is on United States' assistance for 
Egypt. I would like to welcome our witnesses: Elliott Abrams, 
Senior Fellow for Middle Eastern Studies, Council on Foreign 
Relations, and he has served in Government in a variety of 
roles back to the Reagan administration; Michele Dunne, 
Director and Senior Fellow, Middle East Program, Carnegie 
Endowment for International Peace; and Tom Malinowski, Former 
Assistant Secretary of State for Democracy, Human Rights, and 
Labor, U.S. Department of State.
    I will go ahead and make a brief opening statement and we 
will hear from our witnesses.
    The reason for this hearing is that Egypt is important. It 
is important enough for us to care about the relationship, to 
try to make sure the relationship is going in the right 
direction, and it is imperative for me that Egypt become 
successful because it is such an important player in the Middle 
East region. We provide hundreds of millions of dollars of aid 
to the Egyptian Government and the Egyptian people. I want to 
make sure it is a good investment and I want to understand what 
we are investing in.
    The one thing I would say about Egypt on the security 
front, they are doing things in Egypt that we have not done in 
a while. They are helping with Hamas in a historic fashion. 
They are taking the fight to the Islamic State of Iraq and the 
Levant (ISIL) in the Sinai, but at the same time, civil society 
seems to be deteriorating, their economy is lacking, and I 
really worry about a consolidation of power in a way that is 
basically undemocratic. I am not asking Egypt to become 
America. I am asking Egypt to become the best that Egypt can 
be.
    Millions of people went to the streets years ago to protest 
the Mubarak era. Some people gave their lives. Mohamed Morsi 
was the result of that protest. It is clear to me that he 
overplayed his hand. I want current Egyptian President Abdel 
Fattah el-Sisi to be successful. I appreciate his partnership 
on the security front, but for the American taxpayer, we need 
to highlight what we are investing in and try to use our money 
to bring about outcomes that will stabilize not only Egypt, but 
also the region.
    It is a large country with a unique history and I want 
nothing but success for the Egyptian people. The purpose of 
this hearing today is to inform the Congress about the good, 
the bad, and the ugly. Unfortunately, it is all three and we 
need to try to use our money in the most productive fashion to 
help Egypt, but it is now time for Egypt to help us when it 
comes to helping them.
    With that, we will start with Ms. Dunne.
STATEMENT OF MICHELE DUNNE, DIRECTOR AND SENIOR FELLOW, 
            MIDDLE EAST PROGRAM, CARNEGIE ENDOWMENT FOR 
            INTERNATIONAL PEACE
    Ms. Dunne. Chairman Graham, subcommittee members, thank you 
very much for this opportunity to address you.
    The problem for the United States in assisting Egypt is 
precisely this: how can the United States best support an 
important country and a long-time regional ally when its 
Government adopts policies that promise chronic instability?
    The United States has an interest in supporting a stable 
Egypt, an Egypt that is at peace with its neighbors and also at 
peace with itself. But while President Sisi is fond of 
presenting Egypt as a bastion of stability in a troubled 
region, actually the country is struggling and I am afraid it 
could be headed for unrest within a few years.
    Now, to be fair, many of the problems in Egypt have roots 
that go back well before Sisi came to power. They have got a 
rapidly growing population. They have a history of indigenous 
extremist groups. They have an enormous and obstructionist 
bureaucracy. But there are also newer problems that Sisi has 
caused or exacerbated which have made the country more violent, 
more polarized, and poorer than it was, either under former 
President Hosni Mubarak or even under President Mohammed Morsi.
    We are meeting today on what is a public holiday in Egypt, 
Sinai Liberation Day. And unfortunately, in the last few days 
some very deeply troubling information has been coming out 
showing the likelihood of the Egyptian army carrying out 
extrajudicial killings of terrorist suspects in the Sinai, 
perhaps in fact using assistance, using vehicles provided by 
the United States in this.
    And this highlights exactly the problem I am talking about. 
Egypt does face a serious threat from terrorism, but the 
unprecedented human rights abuses and political repression 
practiced by the Government since 2013 is fanning the flames 
rather than putting them out. And the United States, at this 
point, it does not really have a way to ensure that our 
assistance is not making the problem worse instead of better.
    I am actually going to use my time to focus on the economic 
situation because I think that does not get enough attention 
because in general in the United States, President el-Sisi is 
getting good marks on his economic policies. And there is a 
positive side to what he is doing on the economy, but there is 
also a very serious problem.
    In the first few months of 2017, the misery index, which is 
the rate of annual inflation plus unemployment for Egyptians 
has been about 45 percent. Core inflation has been between 30 
and 33 percent. Unemployment, according to official statistics, 
is about 12.5 percent, and most experts think that is really an 
underrepresentation. For young people, unemployment averages 
about 30 percent. For young women, it is about 50 percent. So 
for young Egyptians--and those are the most likely ones to 
cause unrest--the misery index ranges from 60 to more than 80 
percent, so it is clearly an unlivable situation. And despite 
Draconian anti-protest laws, there has been a significant 
increase in spontaneous protests related to economic grievances 
in the past year.
    Now, I said Sisi has gotten good marks on his economic 
policies. And that is because he has taken a couple of 
important steps on the fiscal side. He floated the Egyptian 
currency, which is the main reason for the very high inflation 
right now. And that was something that needed to be done. And 
he has cut back energy subsidies partially and instituted a 
value-added tax. And he did these things in order to get an IMF 
loan, which he has gotten, for $12 billion over 3 years.
    But there is another side in which Sisi's economic policies 
are really not helping Egypt with its economic problems at all. 
And that is when it comes to generating jobs, creating the 
conditions in the Egyptian economy for jobs.
    There are 94 million Egyptians and right now there are at 
least 600,000 new Egyptians coming onto the labor market every 
year, but the economy does not generate anywhere near enough 
jobs for them and that number is only going to go up. Right 
now, there are one million new Egyptians every 6 months, so 2 
million new a year, so you can see how the people coming into 
the labor force are going to be going up.
    And despite lip service from Sisi about creating jobs and 
so forth, it is simply not the case that his economic policies 
are aimed toward that. And they are also not aimed toward 
developing the labor force, which is a major issue in Egypt, 
that even the jobs that are being created sometimes go begging 
because Egyptians do not have the skills, especially if they 
come out of the public education system. They do not have the 
skills that are needed for those jobs.
    You know, unfortunately, look, a World Bank report in 2014 
said it clearly. Economic policies in Egypt are not focused on 
promoting the emergence of fast growing, high productivity 
private sector companies that would generate jobs. Instead, and 
I am quoting here, they have worked to preserve insider 
privileges leading to growth in sectors that are not labor 
intensive.
    This is what is happening in Egypt. For a long time, 
economic policies have been skewed toward protecting the 
privileges of a few, the cronies of the regime. In the Sisi 
era, it is even fewer than that. It is really--the economic 
policies are for the benefit of Sisi's own constituency, the 
military itself. We are seeing a real change in laws, 
regulations, et cetera, that are allowing the military rather 
than the private sector to take up more and more economic 
activity. That is what is behind these mega construction 
projects that Sisi has been carrying out: the Suez Canal 
passage, the new administrative capital he is building in the 
desert, because this is how the Egyptian military knows how to 
make money, by building things.
    Let me just end with a few recommendations. I think the 
United States, with its assistance, should set an example of 
wise investment in human development, in education, and not 
give budget support in the form of cash transfers and other 
things that will disappear quickly without any benefit.
    I would like to submit, Mr. Chair, some written testimony 
in which I have more recommendations for foreign military 
financing, but let me just say briefly, before the United 
States extends more, we really need to investigate these 
reports of human rights abuses and how the United States can 
take foreign military assistance to Egypt off autopilot and 
look at what we can really do to help and not to contribute to 
a worse situation in the country.
    Thank you very much.
    [The statement follows:]
                  Prepared Statement of Michele Dunne
    Chairman Graham, Ranking Member Leahy, subcommittee members, thank 
you for this opportunity to address the subcommittee.
    The problem for United States' assistance to Egypt is precisely 
this: how can the United States best support an important country and 
longtime regional ally when its government adopts policies that promise 
chronic instability? The United States has an interest in supporting a 
stable Egypt, at peace with its neighbors and itself. The Egyptian-
Israeli peace is well established on the military and intelligence 
levels, although lamentably cold on the civilian and citizen level. 
While the United States will always do what it can to encourage closer 
and more multifaceted ties, at this point the relationship has its own 
dynamic. At the same time, there is much to be concerned about 
regarding what is happening inside Egypt, where security, economic, and 
political conditions have deteriorated since President Abdel Fattah al-
Sisi took control in 2013. With $77 billion in American taxpayer 
dollars invested since 1948 in security and economic assistance to 
Egypt,\1\ it is time for the United States to reconsider its approach.
---------------------------------------------------------------------------
    \1\ Jeremy M. Sharp, ``Egypt: Background and U.S. Relations,'' 
Congressional Research Service, March 24, 2017, https://fas.org/sgp/
crs/mideast/RL33003.pdf .
---------------------------------------------------------------------------
    While President Sisi is fond of presenting Egypt as a bastion of 
stability in a troubled region, in reality the country is at best 
limping along and is likely headed for unrest within a few years. There 
are chronic challenges that date back years or decades, well before 
Sisi came to power: a rapidly growing population; an economy that 
generates few jobs; an enormous, obstructionist bureaucracy; and a 
history of indigenous terrorist groups. But there are also newer 
problems that Sisi has caused or exacerbated, which have made the 
overall picture much worse than it was under former presidents Hosni 
Mubarak or Mohammed Morsi. When Sisi took control in 2013, Egypt did 
not have a virulent insurgency, thousands dead in extrajudicial 
killings, tens of thousands of political prisoners, hundreds of 
enforced disappearances, hundreds killed in terrorists attacks annually 
including the recent suicide bombings targeting Christians, and a 
desperate economic situation. Egypt has all of those problems now, 
along with the strong social polarization and susceptibility to 
radicalization that result. While regional factors (conflict in Libya 
and the creation of the self-proclaimed Islamic State) are not helping, 
Egypt's problems are in the main homegrown.
                    economic drivers of instability
    In the unhappy context of unprecedented political repression and 
rights abuses, Egyptians are also beset by an extremely difficult 
economic situation. In the first few months of 2017, the misery index--
the rate of annual inflation plus unemployment--for Egyptians has been 
about 45 percent. Core inflation in recent months has been between 30 
and 33 percent; food prices are rising at an annual rate of 39 
percent,\2\ a serious problem in a country in which a significant 
number of citizens are poor and spent a large percentage of their 
income on food. Unemployment according to official statistics is about 
12.6 percent; \3\ many experts believe this underestimates the true 
unemployment rate, which for young people is estimated at an average 30 
percent and for young women nearly 50 percent.\4\ So for Egyptians 
under 30--those most likely to cause unrest--the misery rate ranges 
from 60 to more than 80 percent. Despite harsh anti-protest laws put in 
place after 2013, public unrest related to the economy (such as 
protests against shortages of bread, sugar, baby formula) has been on 
the rise.
---------------------------------------------------------------------------
    \2\ Core inflation for March 2017: 32.35 percent; for February 
2017: 33.1 percent. Inflation for fruits and vegetables for March 2017: 
39 percent; for February 2017 31.3 percent. Central Bank of Egypt 
website, http://www.cbe.org.eg/en/EconomicResearch/Statistics/Pages/
Inflation.aspx .
    \3\ The World Bank, http://www.worldbank.org/en/country/egypt/
overview.
    \4\ Adel Abdel Ghafar, ``Educated but Unemployed: The Challenge 
Facing Egypt's Youth,'' Brookings Doha Center, July 2016, https://
www.brookings.edu/wp-content/uploads/2016/07/en_youth_in_egypt-1.pdf.
---------------------------------------------------------------------------
    The current high inflation is due to a decision President Sisi took 
in November 2016, for which he has received much praise: he floated the 
Egyptian currency, after years in which he and his predecessors spent 
billions supporting the currency at an artificially high rate. That was 
a necessary step, one of several which Sisi took to secure an IMF 
standby agreement; he has also instituted a value-added tax and reduced 
energy subsidies, needed for fiscal stabilization after Gulf States 
started cutting back their cash aid. But if the currency devaluation is 
not accompanied by steps to increase investment and generate jobs, it 
will be pain without gain.
               the problem with egypt's economic policies
    This brings us to the core problem of the Egyptian economy: it does 
not generate nearly enough jobs for the number of new entrants into the 
labor force. Egypt has a population of nearly 94 million, increasing by 
one million every 6 months. There are more than 600,000 new entrants 
into the labor market every year,\5\ a number that will rise sharply in 
coming years. Yet despite lip service from the government about the 
need to create new jobs, Sisi's economic policies are not oriented 
toward attracting investment in labor-intensive industries or services. 
They do not encourage the creation or growth of the small and medium 
enterprises that have the potential to generate most jobs.\6\ Sisi's 
government also has not undertaken serious efforts to develop the 
Egyptian labor force through education and training; private sector 
employers complain persistently that graduates of public secondary 
schools and universities lack the basic skills needed to perform the 
jobs that are available.
---------------------------------------------------------------------------
    \5\ Ghada Barsoum, Mohamed Ramadan, and Mona Mostafa, ``Labour 
market transitions of young women and men in Egypt,'' International 
Labour Organization, June 2014, http://www.ilo.org/wcmsp5/groups/
public/@dgreports/@dcomm/documents/publication/wcms_247596.pdf.
    \6\ Decision-making that favored insider privileges over broader 
job creation policies has been a persistent problem. See ``More Jobs, 
Better Jobs: A Priority for Egypt,'' The World Bank, June 2014, http://
documents.worldbank.org/curated/en/926831468247461895/pdf/
884470EG0repla00
Box385343B00PUBLIC0.pdf.
---------------------------------------------------------------------------
    Instead of focusing on creating jobs and improving labor force 
skills, Sisi's economic policies are oriented toward helping his most 
important constituency--the military--to make money. That means 
undertaking mega construction projects, such as the second Suez Canal 
passage and new administrative capital in the desert (``Wedian''), with 
no serious consideration as to whether such projects will generate 
significant employment, growth, or even revenue for the government. 
Sisi has also decreed many changes in laws, regulations, and government 
contracting procedures to allow the military or military-affiliated 
companies to take a larger-than-ever share of the economic pie.\7\
---------------------------------------------------------------------------
    \7\ See Emily Crane Linn, ``The Army and its President,'' Foreign 
Policy, January 28, 2016 http://foreignpolicy.com/2016/01/28/the-army-
and-its-president-egypt-sisi/; Shana Marshall, ``The Egyptian Armed 
Forces and the Remaking of an Economic Empire,'' Carnegie Endowment for 
International Peace, April 2015, http://carnegie-mec.org/2015/04/15/
egyptian-armed-forces-and-remaking-of-economic-empire-pub-59726.
---------------------------------------------------------------------------
    The fact that economic decisions in Egypt serve such a narrow range 
of interests reflects the overall constriction of public institutions 
as well as civil society. The parliament is open only to coup- 
supporters, with not only most Islamists but also many secular parties 
either legally barred or strongly harassed--even including several 
larger secular parties that have supported Sisi but have tried to 
preserve some modicum of independence.\8\ The judiciary, once the 
branch of the government most respected by citizens, has become highly 
politicized. Media and journalists have been strongly repressed, and 
there are very few media outlets that are truly independent. Civil 
society groups, both secular groups focusing on human rights or civil 
liberties and social welfare groups suspected of ties to the Muslim 
Brotherhood, have received harsh treatment unprecedented in Egypt--
closed down, assets confiscated, leaders either under prosecution or 
driven out of the country by death threats.
---------------------------------------------------------------------------
    \8\ Michele Dunne and Amr Hamzawy, ``Egypt's Secular Political 
Parties: A Struggle for Identity and Independence,'' Carnegie Endowment 
for International Peace, March 2017, http://carnegieendowment.org/2017/
03/31/egypt-s-secular-political-parties-struggle-for-identity-and-
independence-pub-68482.
---------------------------------------------------------------------------
    All of this repression of society and institutions adds up to a 
situation in which there is minimal input to Sisi on important 
decisions, which are therefore made in the interests of the few and not 
the many. This is a more exaggerated version of what has long been the 
case; during the Mubarak era economic decisions were made to favor 
crony capitalists as well as the military, whereas now it is just the 
military.
                 the u.s. dilemma regarding assistance
    For the United States, Egyptian Government decisionmaking that 
works against stability rather than for it has become a bigger problem 
over time. U.S. assistance increased sharply at the time of the 
Egyptian-Israeli peace in the late 1970s, and for a while military and 
economic assistance were each funded at about $1 billion per year. Over 
time, military assistance stabilized at $1.3 billion annually, while 
economic assistance began to drop off gradually, until in recent years 
it has been $150 million per year. Egypt has used much of the military 
assistance to arm itself with heavy weapons (such as fixed-wing 
aircraft and tanks) for the sort of ground war it has not fought since 
1973 and might not ever fight again, resisting persistent advice from 
U.S. officials to devote more assistance to training, lighter weapons, 
and higher technology.
    The United States has gradually decreased economic assistance 
partly due to difficulties in implementing programs with Egyptian 
Government partners as well as persistent disagreements between U.S. 
and Egyptian officials about needed reforms.\9\ While some Egyptian 
officials have welcomed mutually-agreed reform programs, training, and 
technical assistance, others have stonewalled or frustrated such 
programs, pressing instead for cash assistance. The more pernicious 
side of this has been the strong campaign of harassment and retribution 
against American NGOs carrying out assistance programs, as well as 
Egyptian organizations or individuals who work with American or 
European organizations.\10\ This is hardly the behavior of a partner in 
development.
---------------------------------------------------------------------------
    \9\ Amy Hawthorne, ``Rethinking U.S. Economic Aid to Egypt,'' 
Project on Middle East Democracy, October 2016, http://pomed.org/pomed-
publications/new-report-rethinking-u-s-economic-aid-to-egypt/.
    \10\ ``Close Case 173,'' Amnesty International, https://
www.amnesty.org/en/latest/campaigns/2016/12/close-case-173/.
---------------------------------------------------------------------------
                     opportunity for a new approach
    With a new U.S. administration in office that is reexamining 
foreign assistance priorities overall, there is an opportunity to take 
assistance to Egypt off auto-pilot and design an approach that better 
serves the interests of the United States and of Egypt--the nation 
broadly, not only the military. Members of Congress and of this 
subcommittee, with their long experience in dealing with assistance to 
Egypt, have a special responsibility to shape an approach that makes 
sense and draws on lessons learned.
    The new approach should have a tighter focus on the most pressing 
threats to Egypt's stability: terrorism, but also inadequate education, 
unemployment, and the destruction of civil society. Ideally the U.S. 
and Egyptian Governments would agree on assistance programs and the 
Egyptian Government would cease harassment of implementing 
organizations. If those goals are unrealistic with the current 
government, the United States can still extend assistance to the 
Egyptian people with a minimum of government cooperation. At a bare 
minimum, the U.S. Government should ensure that its assistance is 
neither wasted nor complicit in exacerbating the country's problems.
        recommendations for fiscal year 2018 assistance to egypt
Foreign Military Financing
  --Rather than starting with a fixed amount of FMF, assess the actual 
        threats to Egypt's security and to U.S. interests in Egypt, 
        which center primarily on security of the borders with Libya 
        and Gaza, the Sinai insurgency, and the proliferation of small 
        militant groups in mainland Egypt.
  --Determine what sort of training, technical assistance, and weaponry 
        the United States could provide to help the Egyptian military 
        face these threats, and what it will cost.
  --Make further security assistance contingent on a stop to 
        extrajudicial killings, torture, enforced disappearance, and 
        other serious human rights abuses by the Egyptian Government 
        carried out in Sinai and elsewhere. There is no point in trying 
        to help the government to fight terrorism while it enflames the 
        problem at the same time, potentially with the use of U.S.-
        provided equipment.
Economic Support Funds
  --Set an example of wise investment in human development by devoting 
        most new economic assistance to merit-based scholarships for 
        higher or vocational education at quality institutions in Egypt 
        or abroad, including the American University in Cairo. Consider 
        converting the existing backlog of unobligated economic 
        assistance, amounting to several hundred million dollars, into 
        a fund for such scholarships.
  --Model good practices for job creation and support small and medium 
        enterprises by continuing to fund the Egyptian-American 
        Enterprise Fund.
  --Continue direct assistance to Egyptian civil society organizations, 
        but not through the bilateral aid program. Such assistance 
        should instead be administered either through the National 
        Endowment for Democracy,\11\ the Department of State's Bureau 
        of Democracy, Labor, and Human Rights, or private foundations. 
        Discontinue democracy and governance programs (judiciary, 
        parliament, decentralization) with the government.
---------------------------------------------------------------------------
    \11\ The author serves on the board of the National Endowment for 
Democracy.
---------------------------------------------------------------------------
  --Do not give budget support to the government in the form of cash 
        transfers or loan guarantees under current circumstances, as 
        the funds will disappear quickly with no discernable benefit to 
        Egyptian citizens or to the United States. The United States 
        has already helped to address the government's fiscal 
        challenges by supporting a $12 billion loan from the 
        International Monetary Fund as well as encouraging Saudi Arabia 
        to provide oil worth several hundred million dollars per month.

    Senator Graham. Thank you.
    Mr. Abrams.
STATEMENT OF HON. ELLIOTT ABRAMS, SENIOR FELLOW FOR 
            MIDDLE EASTERN STUDIES, COUNCIL ON FOREIGN 
            RELATIONS
    Mr. Abrams. Thank you, Mr. Chairman. It is an honor to 
appear here today and I hope I can insert the full statement 
for the record.
    There is a remarkable similarity between the structure of 
our aid to Egypt and the structure of the Egyptian military and 
its activities. And that is that both were really established 
decades ago and both need to be rethought. I want to talk about 
the security sector today.
    Our aid to Egypt had not been very high and then leapt up 
after the Sadat visit to Jerusalem and the Camp David Accord, 
and that is 1978. That is 40 years ago. The Middle East has 
changed, and Egypt's role in the Middle East has changed in 
that period.
    The Egypt of that period was really the most influential 
country, the most influential Arab country. And its position on 
everything was of significance to us, but that is no longer 
true. Egypt has no role of significance when it comes to the 
conflict in Yemen or in Iraq or in Syria, nor really on the 
Israeli-Palestinian conflict itself. Egypt's weight in the 
region has really declined.
    Now, what we obviously want to achieve was, you said, Mr. 
Chairman, a stable Egypt, a democratic Egypt, an Egypt that can 
deal with the terrorist threat that it clearly does face, that 
can protect its borders. We want to help Egypt protect the 
human rights of all Egyptians, but I am always reminded of a 
conversation I had decades ago with the late Tom Lantos, who 
was a great champion of human rights. And I was in the Bush 
administration at this point--it was about 10 years ago--and 
talking about aid to Egypt. And Tom Lantos said to me, ``Let me 
ask you a question. Do you really think Egypt needs more tanks 
or more schools?'' And I think it is a question we continue to 
have to ask ourselves.
    Let us look at the Egyptian military. Our goals--probably 
the key goal in Egypt today on the security side is to fight 
terrorism. But the Egyptian military remains a force designed 
to conduct conventional warfare and indeed to conduct 
conventional warfare against Israel. That is what they exercise 
for, another war with Israel. As an Israeli analyst put it last 
year, ``The Egyptian military is essentially still modeled to 
refight the 1973 war.''
    Stratfor put it this way. ``While the existential threat 
from conventional foreign militaries has waned in recent years, 
the new and unconventional dangers of insurgencies, terrorism, 
and non-state actors have risen to take its place. Egypt's 
large and inflexible conventional forces, which are better 
suited to guard against foreign incursion, may not be as 
capable of addressing the country's current security 
problems.''
    The Egyptian military is actually spending huge amounts of 
money enhancing their conventional capability. CRS reported 
that in February 2015, they purchased 24 Dassault Rafale 
multirole fighters, a frigate, and missiles from France. That 
was a deal worth nearly $6 billion. In 2014, they got four--
they bought four naval corvettes from France. That was $1.35 
billion. Fall of 2015, two Mistral helicopter carriers from 
France, large purchases from Russia.
    How do purchases like an anti-ballistic missile system from 
Russia and advanced combat jets really combat terrorist groups 
like ISIS? How do submarines? Yet Egypt just last week received 
the first of four German-made attack submarines, total cost 1.4 
billion Euros.
    There are other problems with the arms aid to Egypt. GAO 
published a report last March entitled ``U.S. Government Should 
Strengthen End-Use Monitoring and Human Rights Vetting for 
Egypt.'' They are not doing all the vetting that they should be 
doing.
    Turn to the approach to terrorism. It is just not 
succeeding. The tactics of the Egyptian Government appear to be 
failing. Just as the terrorist attacks have become routine, so 
to have heavy-handed Egyptian responses resulting in civilian 
casualties. Michele Dunne mentioned this video that just 
surfaced. An analysis by the Carnegie Endowment recently 
concluded state-sanctioned violence against civilians has only 
increased anger against the military. That is in Sinai. 
Egyptian policy has ``shifted some sympathy from the military 
to the militants, who are increasingly seen as a way to take 
revenge.'' That is Sinai.
    I think actually that the Egyptian handling of this is 
creating jihadis. I mean, if you take 60,000 political 
prisoners--and that is the number that there are in Egypt-- 
people who have not committed acts of violence, beat them up, 
toss them into prison, keep them there for years, incarcerate 
them with real jihadis. And what comes out at the end of that 
process is more jihadis. That is what is happening in Egyptian 
prisons.
    A recent New York Times article about prisoners in Egypt 
interviewed a man named Ayman who said many of the prisoners he 
met were from the Muslim Brotherhood. The group formally 
renounced violence in the early 1970s, but Ayman watched his 
cellmates grow hardened in prison. The torture and unjust 
imprisonment for long periods without clear charges or trial 
dates created human bombs.
    NPR recently had a story about a journalist who was jailed, 
Hossam el-Deen, who said, ``In jail, they become ISIS.'' This 
is a common story. It is the story that produced Ayman al-
Zawahiri of al-Qaida, who was radicalized in an Egyptian 
prison.
    So I think it is time, Mr. Chairman, to review the tactics 
of the Egyptian military against terrorism and to review the 
nature of our aid so that it is targeted toward fighting 
terrorism and not toward sustaining this conventional military 
that really has no significant use today.
    Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Elliott Abrams
    Mr. Chairman and members of the subcommittee,

    It is an honor to appear before you today to discuss United States 
assistance to Egypt. I will concentrate on the security side of the 
U.S.-Egypt aid relationship in my testimony.
    There is a remarkable similarity between the structure of U.S. aid 
to Egypt, and the structure of the Egyptian military. Both were 
established decades ago, and both badly need rethinking and upgrading.
    As the Congressional Research Service summed it up, ``Between 1948 
and 2016, the United States provided Egypt with $77.4 billion in 
bilateral foreign aid (calculated in historical dollars--not adjusted 
for inflation), including $1.3 billion a year in military aid from 1987 
to the present.'' \1\ As you know, our aid to Egypt leapt upward after 
the Sadat visit to Jerusalem and the Camp David Accords of 1978. The 
assistance numbers are $370 million in 1975, for example, and $2.588 
billion in 1979. Since then the average amount of aid, in total, has 
been around $2 billion per year, of which 1.3 billion has been military 
aid since the late 1980s.
---------------------------------------------------------------------------
    \1\ U.S. Library of Congress, Congressional Research Service, 
Egypt: Background and U.S. Relations, by Jeremy Sharp, RL33003 (2017), 
https://fas.org/sgp/crs/mideast/RL33003.pdf.
---------------------------------------------------------------------------
    But that's 30 years ago, Mr. Chairman. The Middle East has changed, 
and Egypt's role in the Middle East has changed. The Egypt of decades 
ago was the single most influential Arab country, whose position on 
every issue of significance in the region was of real importance to the 
United States. If we wanted to achieve, or to block, something in the 
Arab League, it often took little more than a conversation with Egypt's 
president. Egypt was critical to the Israeli-Palestinian ``peace 
process.'' Today, Egypt has no role of significance when it comes to 
the conflict in Yemen, or in Iraq, or in Syria, nor frankly does it 
have much of a role in mediating between Israelis and Palestinians. As 
an analysis by the Middle East Institute stated,

          During the 1990s and afterwards, there were numerous 
        illustrations of Egypt's diminished status in the Arab world. 
        If Egypt played any role at all in the efforts to advance the 
        negotiations between Israel and its Arab neighbors in the 
        1990s, it was only a marginal one. Egypt took no part in the 
        preliminary work that was necessary in order to convene the 
        Madrid Conference and set in motion a new Arab-Israel peace 
        process under American sponsorship. The Oslo Agreement between 
        Israel and the Palestine Liberation Organization (PLO) was 
        signed behind Egypt's back, as was the peace agreement between 
        Israel and Jordan, which angered the Egyptians, who thought 
        Jordan would reap the fruits of peace at Egypt's expense.\2\
---------------------------------------------------------------------------
    \2\ ``The Middle East Institute Viewpoints: The Legacy of Camp 
David: 1979-2009,'' (Middle East Institute: Washington, DC, 2009), 31, 
http://www.mei.edu/sites/default/files/publications/Legacy-Camp-
David.pdf.

    Egypt's weight in the region has simply declined.
    The aid we have been giving to Egypt since the late 1970s and 
continue to give now should have a purpose. What actually do we want 
for it? Why do we give it? With the passage of time, I think it is fair 
to say we don't need to bribe or reward Egypt for its relations with 
Israel. As we saw under President Morsi, even a Muslim Brotherhood 
government did not end diplomatic relations and security cooperation 
with Israel--because those relations are in Egypt's interest. So our 
aid should be based on our desire to help achieve a stable, secure, 
Egypt that can defeat the terrorist threat it faces and protect its 
borders, helps to stabilize the region, and remains at peace with 
Israel. We also want to help the Egyptian people achieve a system that 
is more democratic and more respectful of their human rights. I will 
never forget a conversation I had more than a decade ago with the late 
Congressman Tom Lantos, a great champion of human rights. I was an 
official of the George W. Bush administration and we were discussing 
aid to Egypt, and Tom Lantos posed a question. He said, ``Tell me, 
really, do you think Egypt needs more tanks, or more schools?''
    We should judge the overall U.S. aid program against all those 
goals.
    Let us look first at the Egyptian military. While our goals are 
above all to help it fight terrorism, the Egyptian military remains a 
force designed to conduct conventional war--against Israel. Major 
military exercises continue to presume Israel is the enemy. As an 
Israeli analysis put it last year, ``The Egyptian military is 
essentially still modeled to refight the 1973 war, with a war paradigm 
very similar to that of 1973, yet with more advanced hardware and 
somewhat improved tactics. Its core competence is to move large armored 
and infantry formations into forward defense positions, under the cover 
of a mobile integrated air-defense system. Egypt's focus is still on 
main battle platforms (such as tanks, frigates, jets, etc).'' \3\ The 
analysis from Stratfor put it this way:
---------------------------------------------------------------------------
    \3\ Ron Tira, ``The Future Middle East Strategic Balance: 
Conventional and Unconventional Sources of Instability,'' Proliferation 
Papers 56 (2016): 35, https://www.ifri.org/sites/default/files/atoms/
files/prolif56_tira_oksl_v2.pdf.

          [W]hile the existential threat from conventional foreign 
        militaries has waned in recent years, the new and 
        unconventional dangers of insurgencies, terrorism and non-state 
        actors have risen to take its place. Egypt's large and 
        inflexible conventional forces, which are better suited to 
        guard against foreign incursion, may not be as capable of 
        addressing the country's current security issues. . . . While 
        Egypt has taken some steps toward better equipping its troops 
        for counterinsurgency campaigns, it remains overwhelmingly 
        focused on enhancing its military's conventional fighting 
        capabilities. This stance is especially visible in the Egyptian 
        military's force structure. Rather than restructuring its 
        forces into a more flexible organization geared toward 
        counterinsurgency operations, the military has maintained a 
        centralized hierarchy that is broken down into conventional 
        military region, army, corps and division units of command. It 
        has also continued to invest heavily in weaponry such as 
        surface-to-air missile batteries, anti-ship missiles, tanks and 
        frigates that, for the most part, are useless for addressing 
        Egypt's counterinsurgency and counterterrorism threats.\4\
---------------------------------------------------------------------------
    \4\ ``Egypt's Conventional Military Thinking,'' Stratfor, June 12, 
2015, https://www.stratfor.com/analysis/egypts-conventional-military-
thinking.

    Recently, Egypt has begun exercises with Russia for the first time: 
a news story dated October of last year was headlined ``First Russian-
Egyptian military exercise on Egyptian soil.'' \5\
---------------------------------------------------------------------------
    \5\ ``First Russian-Egyptian military exercise on Egyptian soil,'' 
Heaven TV7 Jerusalem, October 26, 2016, http://www.tv7israelnews.com/
first-russian-egyptian-military-exercise-on-egyptian-soil/.
---------------------------------------------------------------------------
    The Egyptian military is spending huge sums on enhancing that 
conventional capability. The Congressional Research Service reports 
that

          In February 2015, Egypt purchased 24 Dassault Rafale 
        multirole fighters, a frigate, and missiles from France in a 
        deal worth an estimated $5.9 billion (half of which is financed 
        by French loans). France delivered the first three planes in 
        July 2015. In 2014, France sold Egypt four naval corvettes and 
        a frigate in a deal worth $1.35 billion. In the fall of 2015, 
        France announced that it would sell Egypt two Mistral-class 
        helicopter carriers (each carrier can carry 16 helicopters, 
        four landing craft, and 13 tanks) for $1 billion. In a separate 
        deal with Russia, Egypt will purchase 46 Ka-52 Alligator 
        helicopters which can operate on the Mistral-class helicopter 
        carrier.\6\
---------------------------------------------------------------------------
    \6\ U.S. Library of Congress, Congressional Research Service, 
Egypt: Background and U.S. Relations, by Jeremy Sharp, RL33003 (2017), 
18, https://fas.org/sgp/crs/mideast/RL33003.pdf.

    Other Russian arms sales include Antey-2500 (S-300) anti-ballistic 
missile system (a $1 billion contract) and 46 MiG-29 multirole fighters 
(a $2 billion contract). How do an anti-ballistic missile system and 
advanced combat jets really combat terrorist groups like Islamic State? 
How do submarines? Yet Egypt just last week received a German-made 
attack submarine--the first of four it has ordered, for a total 
reported price of 1.4 billion Euros.\7\
---------------------------------------------------------------------------
    \7\ ``First Egyptian Navy Type 209/1400 submarine arrives to 
Egypt,'' Naval Today, April 19, 2017, https://navaltoday.com/2017/04/
19/first-egyptian-navy-type-2091400-arrives-to-egypt/.
---------------------------------------------------------------------------
    There are other problems with our arms aid to Egypt. The Government 
Accountability Office published a report in March last year entitled 
``U.S. Government Should Strengthen End-Use Monitoring and Human Rights 
Vetting for Egypt.'' That report states that we cannot account for all 
the aid we are giving Egypt and indeed that Egypt is hindering U.S. 
efforts to track the billions of dollars in assistance. The GAO report 
referred to ``the Egyptian Government's incomplete and slow responses 
to some inquiries limited U.S. efforts to verify the use and security 
of certain equipment, including NVDs [night vision devices] and riot-
control items.'' \8\
---------------------------------------------------------------------------
    \8\ U.S. Government Accountability Office, Security Assistance: 
U.S. Government Should Strengthen End-Use Monitoring and Human Rights 
Vetting for Egypt, GAO-16-435 (Washington, DC, 2016), http://
www.gao.gov/assets/680/676503.pdf.
---------------------------------------------------------------------------
    There is also a problem with human rights vetting. GAO said that

          The U.S. Government completed some, but not all, human rights 
        vetting required by State policy before providing training or 
        equipment to Egyptian security forces. State deemed GAO's 
        estimate of the percentage of Egyptian security forces that 
        were not vetted to be sensitive but unclassified information, 
        which is excluded from this public report. Moreover, State has 
        not established specific policies and procedures for vetting 
        Egyptian security forces receiving equipment. Although State 
        concurred with a 2011 GAO recommendation to implement equipment 
        vetting, it has not established a timeframe for such action. 
        State currently attests in memos that it is in compliance with 
        the Leahy law. However, without vetting policies and 
        procedures, the U.S. Government risks providing U.S. equipment 
        to recipients in Egypt in violation of the Leahy laws.\9\
---------------------------------------------------------------------------
    \9\ Ibid.

    Egypt's approach to combating terrorism, which we are in fact 
supporting to the tune of $1.3 billion per year, is not succeeding. 
There is a real effort in Sinai, but very recently we saw terrorism 
extending again from northern to southern Sinai. The Congressional 
Research Service report from which I quoted previously, dated March 24, 
2017, noted that ``Terrorists belonging to the Islamic State-affiliated 
Sinai Province (SP) have attacked military bases and police 
checkpoints, killing hundreds of Egyptian soldiers. Egypt has declared 
a state of emergency in northern Sinai, where most of the attacks take 
place.'' \10\ But the most recent Sinai attack was in southern Sinai, 
one week ago, Tuesday, April 17, at St Catherine's monastery.\11\ One 
policeman was killed and four wounded, demonstrating sadly that Islamic 
State continues to be able to operate in southern Sinai. On March 24, 
skirmishes with insurgents produced a dozen casualties, ten soldiers 
and two policemen.
---------------------------------------------------------------------------
    \10\ U.S. Library of Congress, Congressional Research Service, 
Egypt: Background and U.S. Relations, by Jeremy Sharp, RL33003 (2017), 
13, https://fas.org/sgp/crs/mideast/RL33003.pdf.
    \11\ Declan Walsh, ``Gunmen Kill Police Officer Near St. 
Catherine's Monastery in Egypt,'' New York Times, April 18, 2017, 
https://www.nytimes.com/2017/04/18/world/middleeast/egypt-
monastery-sinai-attack-
isis.html?_r=1&mc_cid=8aa4c1c91b&mc_eid=9a4f749274.
---------------------------------------------------------------------------
    While no one can doubt the desire of the Egyptian Government to end 
terrorism and defeat Islamic State in Sinai, its tactics appear to be 
failing. Just as the terrorist attacks have become routine, so too have 
heavy-handed Egyptian responses resulting in civilian casualties. 
Egyptian security forces continue to accidentally kill considerable 
numbers of civilians in counterterror operations. In one incident, a 
group of tourists was mistakenly bombed in 2015. In January, a drone 
strike caused 10 civilian deaths. On April 20, a video surfaced on 
Twitter ``that appears to show members of the Egyptian military 
shooting unarmed detainees to death at point-blank range in the Sinai 
Peninsula and staging the killings to look as if they had happened in 
combat.'' \12\ Details surrounding the incident remain unclear.
---------------------------------------------------------------------------
    \12\ Matthew Haag, ``Video Appears to Show Egyptian Soldiers 
Killing Unarmed Men in Sinai,'' New York Times, April 20, 2017, https:/
/www.nytimes.com/2017/04/20/world/middleeast/egypt-soldiers-
extrajudicial-killings-sinai-peninsula.html.
---------------------------------------------------------------------------
    An analysis by the Carnegie Endowment concluded that ``State-
sanctioned violence against civilians has only increased local anger 
against the military. . . .'' and that Egyptian policy ``has shifted 
some sympathy from the military to the militants, who are increasingly 
seen as a way to take revenge. . . . The combination of heavy 
repression, numerous civilian casualties, and the increased reliance on 
the use of airpower and heavy weaponry has not only alienated the local 
population, it has proven highly ineffective.'' \13\
---------------------------------------------------------------------------
    \13\ Maged Mandour, ``The Heavy Civilian Toll in Sinai,'' Carnegie 
Endowment for International Peace, March 16, 2017, http://
carnegieendowment.org/sada/68296.
---------------------------------------------------------------------------
    It's not just the violence that is alienating Sinai residents, but 
the neglect as well. An article in Foreign Affairs last month said 
this:

          Sinai residents are prohibited from joining any senior post 
        in the state. They cannot work in the army, police, judiciary, 
        or in diplomacy. Meanwhile, no development projects have been 
        undertaken in North Sinai the past 40 years. The villages of 
        Rafah and Sheikh Zuwayed have no schools or hospitals and no 
        modern system to receive potable water. They depend on 
        rainwater and wells, as if it were the Middle Ages.\14\
---------------------------------------------------------------------------
    \14\ Maged Atef, ``Sinai's Suffering,'' Foreign Affairs, March 13, 
2017, https://www.foreignaffairs.com/articles/egypt/2017-03-13/sinai-s-
suffering.

    That is no way to win the residents away from the terrorists. The 
Foreign Affairs article warns that ``the population trusts the army 
less by the day as it cuts off communications and services, sieges the 
city, bombs villages, and displaces residents.'' \15\
---------------------------------------------------------------------------
    \15\ Ibid.
---------------------------------------------------------------------------
    The Egyptian Government claims to be winning the battle against 
terror in Sinai, but its claims are suspect. The Carnegie report 
suggests that the numbers are not credible:

        the number of casualties during counterterrorism operations far 
        exceeds the estimated number of Wilayat Sinai fighters. Since 
        the start of the large counterterrorism ``Operation Martyr's 
        Right'' in September 2015, the Egyptian military has reported 
        that 2,529 militants were killed and 2,481 others arrested as 
        of December 2016. However, foreign intelligence agencies, 
        including the Central Intelligence Agency (CIA) and the Israel 
        Defense Forces, estimated in mid-2016 that the size of Wilayat 
        Sinai ranges from several hundred to a thousand militants, far 
        below the numbers of reported killings. This disconnect can be 
        explained by faulty intelligence or by inflating of the number 
        of militants killed to include civilian deaths among militant 
        deaths. The Egyptian Government has a history of attacking 
        civilians mistaken for militants. Local sources in Sinai back 
        up the existence of such incidents, including an invented 
        attack on a police station in Sheikh Zuweid that was used to 
        justify the deaths of civilians in September 2013.\16\
---------------------------------------------------------------------------
    \16\ Mandour, ``The Heavy Civilian Toll in Sinai.''

    Sinai is a particularly dangerous area but the battle against 
terrorism is a difficult one throughout Egypt. The Department of State 
issued a travel warning in December that begins ``The U.S. Department 
of State warns U.S. citizens of threats from terrorist groups in Egypt 
and to consider the risks of travel to the country.'' \17\ Same for 
Canada, which tells citizens ``Global Affairs Canada advises against 
non-essential travel to Egypt due to the unpredictable security 
situation. This advisory does not apply to the Red Sea coastal resorts 
of Hurghada (and its surroundings) and Sharm el-Sheikh, nor to the area 
from Luxor to Aswan along the upper Nile, where you should exercise a 
high degree of caution . . . The security situation in Egypt is 
unpredictable. There is a significant risk of terrorist attacks 
throughout the country. Attacks can be indiscriminate and occur with no 
warning, including in Cairo.'' \18\
---------------------------------------------------------------------------
    \17\ ``Egypt Travel Warning,'' U.S. Department of State, December 
23, 2016, https://
travel.state.gov/content/passports/en/alertswarnings/egypt-travel-
warning.html.
    \18\ ``Egypt,'' Government of Canada, April 12, 2017, https://
travel.gc.ca/destinations/egypt.
---------------------------------------------------------------------------
    I would suggest that in our general battle against terrorism, Mr. 
Chairman, Egypt is acting in ways that will in fact make it not an 
asset but a liability--indeed will make it a jihadi factory. It is 
estimated that there are 60,000 political prisoners in Egypt today--
meaning individuals who did not commit crimes of violence. If you take 
thousands of young men, toss them into prison, beat and torture them, 
incarcerate them for lengthy periods with actual jihadis, what comes 
out at the end of the process is in fact more jihadis.
    There can be little debate about prison conditions and about the 
maltreatment of prisoners. But there can also be little debate about 
what this produces. Here is part of a New York Times article about 
prisoners in Egypt:

          Ayman said that many of the prisoners he met were from the 
        Muslim Brotherhood, the Islamist political organization that 
        briefly held power after Mubarak. The group formally renounced 
        violence in the early 1970s, but Ayman watched his cellmates 
        grow hardened in prison. ``The torture and unjust imprisonment 
        for long periods without clear charges or trial dates created 
        human bombs,'' he said. ``Each one of them was just waiting to 
        get out. They are so thirsty for revenge.'' \19\
---------------------------------------------------------------------------
    \19\ Joshua Hammer, ``How Egypt's Activists Became `Generation 
Jail,''' New York Times, March 14, 2017, https://www.nytimes.com/2017/
03/14/magazine/how-egypts-activists-became-generation-jail.html?_r=0.

    Last year an NPR story reminded us that ``Egypt has a history of 
breeding militancy in its jails. Prominent jihadists including al-Qaida 
leader Ayman al-Zawahiri were radicalized during their abuse and 
humiliation in prison. Now it appears to be continuing, possibly on a 
wider scale to match a broad crackdown on rights in Egypt.'' \20\ The 
story quotes one journalist who was jailed, Hossam el-Deen:
---------------------------------------------------------------------------
    \20\ Leila Fadel, ``As Egypt's Jails Fill, Growing Fears of a Rise 
in Radicalization,'' NPR, August 24, 2016, http://www.npr.org/sections/
parallels/2016/08/24/491170122/as-egypts-jails-fill-growing-fears-of-a-
rise-in-radicalization.

          In jail, they become ISIS. And this is very horrible. Many 
        people--not one or two or three, many. . . . And I saw even 
        members of Muslim [Brotherhood] become ISIS now. Some of them 
        spent 3 years now without any real accusation in this very hard 
        condition--so they become thinking that violence is the 
        solution.\21\
---------------------------------------------------------------------------
    \21\ Ibid.

    The story then recounts a communication with someone still in 
---------------------------------------------------------------------------
prison:

          Today he sleeps on the floor, with no mattress, in a cell 
        with 10 other people. He told me that ISIS members imprisoned 
        with him try to recruit him frequently. He says there are more 
        than 100 ISIS members inside, and they openly sing Islamic 
        State chants together at night. They bring him food. They talk 
        to him about his father, who was killed in 2013 along with 
        nearly 1,000 others, when the government crushed two sit-ins in 
        Cairo. They tell him he should take revenge.\22\
---------------------------------------------------------------------------
    \22\ Ibid.

    Ahmed Maher, a leader of the movement that peacefully overthrew 
Hosni Mubarak, and who is now under house arrest in Egypt after being 
imprisoned for his opposition to the government, gave us all another 
---------------------------------------------------------------------------
warning:

          Prison has really become a breeding ground for extremists. It 
        has become a school for crime and terrorism, since there are 
        hundreds of young men piled on top of each other in narrow 
        confines, jihadists next to Muslim Brotherhood members next to 
        revolutionaries next to sympathizers. There are also a large 
        number of young people who were also arrested by mistake and 
        who don't belong to any school of thought.
          Everyone is suffering oppression and punishment inside the 
        prisons. Everyone is accused of being either a terrorist or a 
        member of the Muslim Brotherhood. This is turning the people 
        arrested by mistake who don't belong to any movement into 
        jihadists. Moreover, Muslim Brotherhood members are gradually 
        becoming radicalized, since they suffer from inhumane treatment 
        in the prisons. The authorities treat the prisoners like 
        slaves, and this inspires a thirst for revenge, not to mention 
        the undignified treatment that the families face when they 
        visit.
          ISIS has exploited the situation.\23\
---------------------------------------------------------------------------
    \23\ ``In Translation: April 6's Ahmed Maher on Egypt under Sisi,'' 
Arabist, August 17, 2015, https://arabist.net/blog/2015/8/17/in-
translation-april-6s-ahmed-maher-on-egypt-under-sisi?utm_
source=Sailthru&utm_medium=email&utm_campaign=New%20Campaign&utm_term=
%252AMideast%20Brief.

    So I believe that the current policies of the government of Egypt 
almost guarantee that terrorism will continue and may indeed expand.
    Our military assistance program is pretty much irrelevant to the 
effort to combat terror in Egypt. The Egyptian military has, as I've 
noted, wanted to spend vast sums on submarines and frigates and high-
performance combat jets, all of which are useless in fighting terror 
and waste scarce resources. I believe we should all be reviewing our 
own aid to see how it can be made far more useful to the achievement of 
our own goals: to repeat what I said earlier, to help achieve a stable, 
secure Egypt that can defeat the terrorist threat it faces and protect 
its borders, help to stabilize the region, remain at peace with Israel, 
and protect the freedom and human rights of Egyptians.
    Stratfor suggests some changes that would be useful: ``Such an 
effort would require heavy investment into rapid reaction forces 
equipped with sophisticated infantry weapons, optics and communication 
gear. These forces would need to be backed by enhanced intelligence, 
surveillance and reconnaissance platforms. In order to transport them, 
Egypt would also need numerous modern aviation assets.'' \24\ By the 
latter I assume they mean things like transport capabilities that would 
permit getting well-trained counter-terror forces to where they are 
needed very quickly.
---------------------------------------------------------------------------
    \24\ ``Egypt's Conventional Military Thinking,'' Stratfor, June 12, 
2015, https://www.stratfor.com/analysis/egypts-conventional-military-
thinking.
---------------------------------------------------------------------------
    We need to discuss the mix of weaponry now being given to Egypt to 
see how it matches with our objectives. As you know this has been an 
American goal at least since 2015--to align FMF with shared security 
interests. This is a matter of equipment, but also of training and 
doctrine. And all of the aid, and the advice and training we give, of 
course exists in a context--in this case, the context of growing 
terrorist activity in Egypt combined with a repressive government 
policy that seems most likely to increase rather than diminish the 
ability of terrorists to recruit.
    We remain too much on automatic pilot, continuing an aid program 
that reflects a Middle East and an Egypt of 30 or 40 years ago. That's 
why this hearing and the subcommittee's work to review that program and 
rethink the aid relationship with Egypt is of such great value.
    Thank you for this opportunity to appear before the subcommittee.

    Senator Graham. Mr. Malinowski.
STATEMENT OF HON. TOM MALINOWSKI, FORMER ASSISTANT 
            SECRETARY OF STATE FOR DEMOCRACY, HUMAN 
            RIGHTS, AND LABOR, U.S. DEPARTMENT OF STATE
    Mr. Malinowski. Thank you, Senator Graham, members of the 
subcommittee.
    Let me--I want to start by echoing a point that Elliott 
Abrams made because I think the overarching question here is 
what are our interests? What are our expectations with respect 
to our relationship with Egypt? And what do we actually get for 
this investment?
    The aid program, the relationship, it has been based on a 
longstanding assumption that Egypt is an important player in 
the region. And with that assumption comes another that our 
long-term interest and better governance, respect for human 
rights sometimes comes into conflict with our immediate 
national security interests.
    We certainly, in the Obama administration, operated under 
the assumption that there was a lot that Egypt could do for 
regional security and for us. And we tried again and again and 
again to engage them on a variety of common interests. And I 
would say the reality is we were frustrated in the vast 
majority of cases. More and more, it looked to us that Egypt is 
becoming a country that sucks up aid, a lot more from the Gulf 
states than from us, as you know, while contributing very, very 
little to regional security and treating the aid as an 
entitlement that simply must continue and continue and 
continue.
    About the only country--well, there is the longstanding 
Egyptian commitment not to tear up the treaty with Israel. I 
guess that is one thing that we get. At this point, in the 
history of the Israeli-Egyptian relationship, I would say that 
that is something that sustains itself because it is very much 
in Egypt's interests. It is not something that they do for us.
    In Libya, their influence has been largely negative. After 
receiving $70 billion of American assistance over the years, I 
am sure you have noticed that there is not a single Egyptian F-
16s in the skies over Raqqa or Mosul helping us in the counter-
ISIL fight. Yes, they are engaged with ISIL in the Sinai, but 
as we have heard, in ways that probably make the problem 
steadily worse rather than better. And there is video that has 
already been mentioned a couple of times, I think in addition 
to showing something gruesome, also shows just how 
counterproductive the tactics are. This is basically a window 
into a strategy in which young men who may or even may not be 
members of ISIS are rounded up, executed in cold blood, and 
then passed off as casualties in a battlefield fight so that 
the army can look good. We know from history that is the way to 
lose a fight like this, not to win.
    I think that almost any observer of the Sisi Government I 
think would agree that over the last 2 or 3 years the primary 
priority of the Egyptian military and General Sisi has not been 
to fight terrorism or to improve governance. It has been to 
make sure that what happened in 2011, the Tahrir Square rising, 
that something like that can never, ever, ever, ever happen 
again in Egypt and that the power of the military over the 
country's politics and economics is not challenged again. And 
as a result, they have concentrated as much on persecuting 
their political opponents, peaceful protesters, independent 
NGOs--the very people in the country who are most likely to 
despise jihadism--as it has on hunting down terrorists.
    So we know some of the leading dissidents in the country 
from the 2011 period are still in jail. Tens of thousands of 
others behind bars for nothing more than having attended a 
demonstration or being members of a political party. A lot of 
these folks languish for years in pre-trial detention, like the 
American citizen Aya Hijazi did. Many are subjected to the most 
brutal forms of torture.
    Read, if you have the stomach for it, the coroner's report 
on the death of that young Italian student, Guilio Regeni, who 
was disappeared in Cairo last year, and you will have a sense 
of the sadistic treatment that Egyptians experience at the 
hands of their security agencies. The top officials of those 
agencies know perfectly well, what goes on, and they do nothing 
to stop it. In fact, one of the most notorious places of 
torture in Egypt is the headquarters of the national security 
agency, the successor to the old secret police, right in 
downtown Cairo near Tahrir Square.
    Meanwhile, crackdown on NGOs has intensified. The NGO law 
basically makes it illegal for civil society organizations to 
function unless they get permission for every single thing they 
do from the Government. We have had a steady presence of 
preposterous, ridiculous, and pernicious anti-American 
propaganda in the state media. So the same Government that 
comes up here and lobbies for less restrictions on assistance 
in the name of better relations with Egypt, back home in Egypt 
treats anybody who seeks to get support and partnership from 
the United States as a criminal.
    What should we do in light of all of these problems? Well, 
I think we have to have realistic expectations. Egypt has been 
experiencing this turmoil for a long time. Only Egyptians can 
resolve this. It is probably going to take a lot longer for 
that to happen. I do not think more positive engagement is 
going to work very well, nor do I think more quid pro quo slap 
on the wrist conditionality is going to work all that well in 
terms of changing things fundamentally.
    But thought it may be hard to change the way the Egyptian 
Government treats its own people, one recommendation I would 
have is that we should demand that it change the way it treats 
ours. We should have zero tolerance for the mistreatment of 
American citizens, for continued anti-American propaganda and 
state media, and for the persecution of individuals or NGOs for 
association with Americans.
    I will say this half tongue in cheek. You can call this an 
America First human rights policy for Egypt. These are things 
we can demand and they will respect it if we demand them.
    Number two, avoid complicity in these abuses. So, enforce 
the Leahy Law when there are serious violations. Be very, very 
wary--I would encourage you all--of any proposals to try to 
strengthen, intensify, deepen, counterterrorism and 
intelligence sharing partnerships with the security agencies 
that are engaged in these abuses. They will abuse the 
partnerships in addition to the people.
    Third, avoid reinforcing the Egyptian sense that aid is an 
entitlement. So cash flow financing of military aid, we should 
not go back to that.
    And then the big question is what do we do about military 
assistance? What do we do about the $1.3 billion NFMF? I think 
it would be a dispiriting choice to simply go back to providing 
that unconditionally. It would just be helping Egypt buy 
weapons that are ill-suited to meet the threats that it faces 
while reinforcing that entitlement mentality and kicking the 
serious problems down the road again.
    Another possibility would be to provide most of it, 
continue withholding the 15 percent currently withheld because 
of human rights abuses. That would send a modest signal of 
disapproval. Not sure if it would do all that much good.
    The third option would be to step back and ask whether our 
investment in Egypt is appropriate given the value we get from 
it and the crisis and opportunities we face elsewhere. My 
strong view is that the investment is completely out of 
balance. Does it really make sense for this Government which 
does so little for regional security which consistently rejects 
our advice, which describes us to its people as a hostile enemy 
to receive such a disproportional share of U.S. military aid.
    So I agree. We should tailor what we provide to actual 
counterinsurgency operations in places like the Sinai if they 
are willing to accept it, which I am not sure if they would 
under those terms, and think about where else in the region and 
the world our partnerships are appreciated and our money can do 
actual good in the fight against terrorism and for a better 
world.
    Thank you very much.
    [The statement follows:]
               Prepared Statement of Hon. Tom Malinowski
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to testify today.
    There is a perception of Egypt that has guided our engagement with 
the country for decades. Egypt is the largest country in the Arab 
world; historically, it has exercised great political, cultural, and 
religious influence in the region as a whole. With that in mind, 
despite the internal turmoil Egypt has experienced in the last few 
years, the Obama administration, like its predecessors, tried to engage 
successive governments in Cairo to address regional challenges. We 
tried to address the internal turmoil, too, especially after the Tahrir 
Square revolution created what seemed like a real chance to help 
Egyptians build democracy. But as those hopes faded, Egypt began to 
look once again like a classic case of a country where our long term 
interest in better governance and human rights came into conflict with 
our immediate need to cooperate with an important country on security 
interests.
    Looking back on our experience, I would say that the perception of 
Egypt as an important player in the region, and thus our weighing of 
the trade offs, needs revision. We should see Egypt more clearly for 
what it has become: a country that sucks up aid from the United States 
and the Gulf countries, treating our largesse as an entitlement, while 
contributing virtually nothing positive to regional security or 
prosperity. Yes, it is true that Egypt has maintained its peace treaty 
with Israel, but that is not a concession to us; it is something it 
does in its own interest. The one place in the region where Egypt has 
exercised independent influence is Libya, where it has made matters 
worse. It has played no significant role in the counter-ISIS coalition. 
We've given Egypt more than $70 billion over the years, yet the last 
time I checked, there were no Egyptian F-16s helping us fight ISIS over 
Raqqa or Mosul. Meanwhile, the Egyptian military has taken our aid 
while consistently rejecting the advice we've offered alongside it--for 
example, that it fight the insurgency in the Sinai by securing rather 
than punishing the population. As a result, that insurgency has grown, 
and terrorism has increased in Egypt since President Sisi took power.
    Despite all this, it is often said that President Sisi is the 
counter-terrorism partner we need. He is a religious man committed to 
secular politics. He says he wants to reform Islam. He promises to 
protect Christians. He tells us a lot of what we want to hear. And I'm 
willing to believe that he believes it. But we need to ask ourselves: 
why would young people in the Muslim world who might be open to 
persuasion by extremists look instead to an army general known for 
imprisoning and torturing thousands of young Egyptians for moral and 
spiritual guidance? General Sisi is not a man who can exercise 
influence in such matters, whatever his intentions. What he should do 
is to focus on governing Egypt well, delivering services and security 
and giving his people the sense that they are being treated fairly and 
with dignity. That would be the best thing he could do to counter the 
extremists.
    Unfortunately, neither good governance nor counter-terrorism has 
been the Egyptian military's top priority in recent years. Its focus, 
and General Sisi's, has been preserving its dominant position in 
Egypt's government and economy. To that end, it has concentrated as 
much on persecuting political opponents, peaceful protestors and 
independent NGOs--the very people in the country most likely to despise 
jihadism--as it has on hunting down terrorists.
    Prominent dissidents like Alaa Abdel Fatah and Ahmed Maher, both 
leaders of the 2011 Tahrir Square movement, remain in prison after 
being convicted in unfair trials. Tens of thousands of others who are 
not as well known are also behind bars for nothing more than having 
attended a demonstration or membership in a political party or for 
reasons that security agencies do not explain, since current counter-
terrorism laws basically give them carte blanche to do what they want. 
Many prisoners languish for years in pre-trial detention, like the 
recently released American citizen Aya Hijazi. Some disappear for weeks 
or months, their fates hidden from family and lawyers. Many are 
subjected to the most brutal forms of torture. Read, if you have the 
stomach for it, the autopsy reports on the death of the Italian 
student, Guilio Regeni, who was disappeared in Cairo last year, and you 
will have a sense of the sadistic treatment Egyptians experience at the 
hands their security agencies, especially when suspected of political 
crimes. The top officials of those agencies know perfectly well what 
goes on and do nothing to stop it.
    One consequence of the Egyptian Government's conflation of 
political dissent with terrorism is that in the country's overcrowded 
prisons, peaceful protestors are held right alongside violent 
jihadists. I've heard from people released from those prisons that 
inside, the men from ISIS taunt those who had placed their faith in 
political activism: ``You thought you could change Egypt through 
elections and look at what happened to you; next time, don't be a fool 
and fight with us.''
    The Sisi government has also intensified its crackdown on NGOs. A 
new NGO law the parliament adopted last November essentially places 
civil society groups under government supervision, prohibiting work 
that doesn't conform with the government's priorities. Here is an 
example of what that means in practice: this February, the government 
shut down the main organization in Egypt working to rehabilitate 
victims of torture.
    Meanwhile, the government reserves its worst persecution and 
vitriol for those in Egyptian society who have received support from 
the United States. Think about what this means: Even as the Egyptian 
military takes billions of dollars from us, even as the Egyptian state 
and its lobbyists make the rounds in Washington urging us to improve 
the relationship, prominent Egyptians who commit the so called crime of 
partnering with us are prosecuted or have their bank accounts frozen. 
Mr. Chairman, two of your counterparts in the Egyptian parliament who 
were among the most vocal supporters of good relations with the West 
and peace with Israel were thrown out of the parliament last year, 
including Mohammed Anwar Sadat, the nephew of the late President Sadat, 
who was expelled for speaking to Westerners about the NGO law.
    This doesn't just happen to those associated with democracy and 
human rights issues. Last year, the Egyptians launched a smear campaign 
against the U.S. non- profit organization RTI, through which we were 
providing aid to Egypt's education system. The Egyptian Government 
prevented us from spending a significant share of our economic 
assistance because of restrictions it imposed or outrageous accusations 
it made against the implementing NGOs. Eventually, we moved some of 
that funding elsewhere.
    All this has been part of a broader campaign in Egypt's state and 
pro-government media against the United States. General Sisi himself 
often has spoken about what he sees as the threat of ``fourth 
generation warfare''--which other Egyptian military officials have 
explicitly defined as an effort by the U.S. and other Western countries 
to weaken Egypt through promotion of democratic values and funding of 
NGOs. In the last couple of years, state media have constantly pushed 
the message that the United States aims to destroy Egypt from within. 
Some of it is obviously preposterous--my favorite was a full page 
spread in one newspaper alleging that the Hunger Games movies contained 
hidden signals to Egyptians to rise up against their state. But it's 
not a laughing matter. This propaganda reaches a lot more people than 
anything ISIS puts out, and it encourages deep cynicism and hostility 
towards the United States. We raised this with General Sisi during the 
Obama administration, and he has tempered his own comments since. But 
the larger problem in state media continues, and we should be much less 
tolerant of it.
    What should we do in light of all these problems?
    We should start with realistic expectations. U.S. officials have 
spent countless hours with their Egyptian counterparts in recent years, 
urging economic reforms, better military strategies, and greater 
respect for human rights, offering help on all counts, to almost no 
avail. More of that kind of positive engagement is not likely to help. 
Any efforts to improve the relationship will likely be subverted anyway 
by Egyptian actions to which we will have to respond. The video that 
surfaced over the weekend showing Egyptian security forces in the Sinai 
executing prisoners who apparently had been transported in U.S. 
provided Humvees is a case in point--that kind of incident could 
require, under the Leahy Law, suspending assistance to forces in the 
Sinai unless those responsible are punished.
    At the same time, I don't think that quid pro quo conditions on 
assistance are likely to do much good, either, at this point. The 
Egyptians don't believe we're capable of sticking to our guns for long 
when we use that weapon.
    If there is any chance for fundamental change in Egypt, it's going 
to come from within. And it's probably going to take a long time. But 
there are some sensible steps we can take in the meantime.
    First, though it may be hard to change the way the Egyptian 
Government treats its own people, we can certainly demand that it 
change how it treats us. We should have zero tolerance for the 
mistreatment of American citizens (several more of whom remain unfairly 
imprisoned), for continued anti-American propaganda in state media, and 
for the persecution of individuals or NGOs for association with 
Americans. Call it an America First human rights policy. Swift 
consequences for such actions would deter them and lead over time to a 
healthier U.S.-Egyptian relationship.
    Second, we should avoid policies and statements that make us 
complicit in or legitimize the Egyptian Government's abuses. This means 
having a correct relationship with General Sisi, without giving him 
undue praise or suggesting that his rhetorical commitment to fighting 
extremism excuses crimes that fuel extremism. It means enforcing the 
Leahy Law. It means keeping our distance from the Egyptian security 
agencies responsible for political persecution. I would encourage you, 
Mr. Chairman, to be especially wary of any proposals to enter into 
additional intelligence sharing or counter-terrorism partnerships with 
these agencies; this is an area were congressional oversight is needed.
    Third, we should continue to speak out publicly against human 
rights abuses in Egypt, ideally in concert with European and other 
allies. I am confident that the Egyptians care about their 
international image, and that it matters to them greatly, for example, 
when we and our allies speak with one voice, for example, at the UN 
Human Rights Council. Multilateral diplomacy can be effective with 
Egypt at least on the margins. We should it pursue it with greater 
vigor.
    Fourth, we should avoid reinforcing the Egyptian sense that U.S. 
assistance is an entitlement. The Obama administration ended cash flow 
financing of military aid to Egypt, and that decision should stand. It 
makes no sense for U.S. taxpayers to be on the hook for subsidizing 
Egypt's defense budget years in advance no matter what the Egyptian 
Government does in the interim.
    That leaves one final, critical question--what to do with our 
military aid to Egypt? There are three basic choices here. We could 
simply return to providing $1.2 billion a year unconditionally. That 
would be a dispiriting choice, in my view--we'd just be helping Egypt 
buy weapons that are ill suited to meet the security threats it faces, 
while reinforcing its entitlement mentality, and kicking the tough 
issues down the road once more. Or, we could provide most of the aid 
package, while continuing to withhold the 15 percent currently withheld 
because of human rights abuses. That would send a modest signal of 
disapproval, but do little good besides.
    The third option would be to step back and ask whether our 
investment in Egypt is appropriate given the value we get from it and 
the crises and opportunities we face elsewhere. My strong view is that 
the investment is completely out of balance. Does it really make sense 
for this government, which does so little for regional security, which 
consistently rejects our advice, which describes us to its people as a 
hostile enemy, to receive such a disproportionate share of U.S. 
military aid?
    Again, I'm not arguing here that we use aid as leverage to get 
something out of Egypt. I'm simply arguing for spending money sensibly. 
Let's provide assistance tailored to support the Egyptian military's 
efforts to protect its borders and its people from terrorists--
assistance that might enable a true counterinsurgency campaign in the 
Sinai, for example--if it is willing to use it wisely. But we should no 
longer subsidize the purchase of planes and tanks that Egypt wants for 
showing off at military parades, or for a hypothetical war with one of 
its neighbors.
    And then we should reprogram the bulk of the $1.2 billion subsidy 
where we can actually achieve something and where our help is 
appreciated. Think of what we could do with such a sum. We could make 
sure every Syrian refugee child can go to school. We could provide 
democratic Tunisia more of the support it needs to protect itself 
against returning foreign fighters and to get its economy going again. 
We could more quickly restore governance to liberated areas of Iraq and 
Syria. We could do more to help the victims of famine in Yemen. With 
just the teensiest fraction of that sum, my former bureau at the State 
Department could do more to help victims of torture and persecution in 
Egypt and elsewhere; it could make a huge contribution to our North 
Korea strategy by getting more uncensored information to the North 
Korean people; it could ensure that everyone in Iran has access to an 
uncensored Internet in time for their presidential elections this year. 
That's just my list; I'm sure, Mr. Chairman, you could come up with 
your own.
    I think our foreign policy would benefit from a more rational 
allocation of foreign aid spending. I also think that our relationship 
with Egypt, over time, would benefit if we could break out of the 
straightjacket of an outdated policy and stop providing it with support 
for which virtually no one in the U.S. Government can provide a 
positive justification. Let's try to imagine a policy tailored to our 
interests and values, and then work over time to put it into place.

    Senator Graham. Well, thank you.

                  COOPERATION BETWEEN EGYPT AND ISRAEL

    We will do 7-minute rounds of questions and answers and I 
will start off.
    Mr. Abrams, I talked to Israel recently. They are fairly 
pleased with the security cooperation between Egypt and Israel 
regarding Hamas. Is that an accurate statement?
    Mr. Abrams. Yes. The Government of Egypt, of course, views 
Hamas as part of the Brotherhood, very much opposed to it, and 
there is probably better cooperation against Hamas than there 
has ever been. I think it is fair to say the Israelis are more 
active now in helping in Sinai than they have ever been before.
    Senator Graham. I hear reports where Egyptian helicopters 
are flying from Israeli airbases to confront ISIL.
    Mr. Abrams. I have heard those reports.
    Senator Graham. So, on the good side, it seems like we have 
a relationship between Egypt and Israel on the security front 
that is productive.

                           REPRESSIVE NGO LAW

    Tom, tell us about the NGO law very briefly if you could. 
What are the new requirements of this new law they have passed?
    Mr. Malinowski. Well, they have gotten tighter and tighter, 
but basically a whole range of day-to-day activities that an 
organization needs to conduct.
    Senator Graham. Well, I have heard that you have to get 
approval from the Government for a poll survey.
    Mr. Malinowski. Sure, or any number of other activities. 
So, first of all, those requirements give the Government the 
opportunity to say no and to shut down particular activities, 
but even if the Government is not so inclined, the mere fact 
that you have to constantly ask for permission to do things is 
just--it makes it virtually impossible to function. And it is 
almost impossible not to--the rules are so complicated, it is 
impossible not to be in violation of something at any given 
moment, which means that at any given moment if the Government 
wants to shut you down, it can.
    Senator Graham. Okay.
    Mr. Malinowski. An example of this, the leading 
organization in Egypt for the rehabilitation of torture victims 
was recently shut down, so.
    Senator Graham. Okay.
    Mr. Malinowski. Yeah.
    Senator Graham. It is also true that American NGOs and 
employees, the International Republican Institute and the 
National Democratic Institute, have been convicted in Egyptian 
court of being spies. Is that true, Mr. Abrams?
    Mr. Abrams. It is true and it is an extraordinary thing.
    Senator Graham. Ray LaHood's son.
    Mr. Abrams. Ray LaHood's son is one of them. It is an 
extraordinary thing. We are talking about Freedom House, IRI, 
NDI. These are not subversive organizations.
    Senator Graham. Right. I have talked extensively with 
President el-Sisi about this. I appreciate what the Egyptian 
Government did with Aya Hijazi. Clearly, I think they were 
trumped up charges. She was acquitted within a few days of a 
visit, so so much for we cannot control what happens in the 
judiciary.

                   IMPACT OF EGYPT AS A FAILED STATE

    Ms. Dunne, in terms of the future of Egypt, without some 
economic reforms and without economic growth, what is going to 
happen in Egypt? And to all of you very quickly--what does it 
matter to us if Egypt becomes a failed state? Because that is 
what I fear the most, quite frankly, is that we are headed that 
way.
    Ms. Dunne. Yes, Senator. That is true. That danger is 
there. The employment problem in Egypt is enormous. The human 
development problem in Egypt is enormous. They have failing 
educational institutions, people coming out of secondary school 
and even public universities without the basic skills needed to 
be in the global workforce.
    So those are major problems and, as I have said, the 
Egyptian Government persistently makes economic decisions that 
do not really empower the private sector, small and medium 
enterprises, et cetera, to create jobs. That is what is really 
needed to create, you know, labor intensive industries, 
services, et cetera, to put Egyptians to work. Without that, 
you have got a growing unemployment rate and you have a growing 
population. The growing population, I think, is also related to 
the fact that young women cannot get jobs and so sometimes they 
marry very early and start families, have big families.
    So they are--you know, this is--it is hard to see where 
this is going. And what the Government keeps doing, and I think 
Tom Malinowski referred to this, is just trying to attract more 
and more external financing to keep them afloat, but that is 
not a long-term plan. They need a productive economy.
    Senator Graham. Elliott.
    Mr. Abrams. But it is by far the most populous Arab state 
with over 90 million people and growing fast. So if it were to 
become a failed state, as you said, Mr. Chairman, the impact on 
the whole Arab world would be destabilizing. It would be 
destabilizing in North Africa and if you ever got refugee 
flows, it would make the refugee situation in the region and 
toward Europe that much worse.
    Senator Graham. How realistic is that? Is that a 
possibility?
    Mr. Abrams. Well, I think it is a possibility that you 
would see more disorder because, for one thing, as Dr. Dunne 
says, the economic conditions are deteriorating. You have more 
strikes. You could see more bread riots. So you could see a 
deterioration which could--you know, it is a vicious cycle. 
That produces more repression, which then produces more of an 
uprising. So I think it is we should not assume stability in 
Egypt.
    Senator Graham. That is my question. We assume it just 
because it has been there, but I do not think that is a good 
assumption to make, given what I know.
    Tom, do you agree with that?
    Mr. Malinowski. Sure. You know, I do not think Egypt has 
been stable for the last 6 years, since 2011. I think it would 
be foolish for me to make predictions about when the next 
political rising will be. We have no idea, but we do know that 
this is a country that will demonstrate surface stability until 
it does not. And because of its size, because of its 
volatility, the consequences could be quite great.
    Senator Graham. Thank you all. I will recognize Senator 
Leahy now. Then we will go to Senator Moran.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you very much, Mr. Chairman. I 
apologize for being late. I am glad to see this panel. I know 
all three of them and the subcommittee is fortunate to have 
their views.
    Egypt is an important country, at least in their mind. The 
question is where is it going. We--yes.
    Let me try a different microphone. Can you hear me all 
right?
    Senator Graham. Yes.

          U.S. ASSISTANCE FOR EGYPT AND EGYPTIAN CIVIL SOCIETY

    Senator Leahy. Okay. In my lifetime, we have provided more 
than $79 billion in economic and military aid to Egypt. That 
does not include the excess defense equipment that runs into 
billions more. Yet the Egyptian people seem generally unaware 
of this, since the U.S. comes across so negatively in most of 
the polls. Or maybe they do know it and they resent how the aid 
has been used to prop up repressive actions in their own 
Government. And the younger generation sees no prospects for 
jobs.
    Now, Egypt's position geographically does give it 
importance. I don't know if it justifies the billions of 
dollars we spend there. Thousands of members of political 
oppositions parties have been imprisoned after sham trials. 
Members of civil society organizations are falsely accused of 
salacious crimes, and are detained for years. Critics of the 
Government are tortured and killed, when U.S. officials and 
independent press are denied access to areas where U.S. weapons 
are being used amid reports of war crimes. I think we have to 
ask some basic questions.
    Secretary Malinowski, you have heard me ask these questions 
before, but what are the Egyptian Government's intentions with 
civil society groups? If they use anti-terrorism laws to arrest 
these people, how should we react? What purpose does our $1.3 
billion in annual military aid serve and what security threats 
do they face to justify it?
    I want Egypt to succeed, but certainly not in a way where 
critics of the government are being repressed, where the 
response to our concerns is ``give us the money, give us the 
aid, give us the equipment. But we are not going to tell you 
how we are going to use it.'' That's not acceptable.
    Mr. Malinowski, you were Assistant Secretary for Human 
Rights. I want you to know an awful lot of members of the 
Senate, both Republicans and Democrats, applaud what you did.
    Mr. Malinowski. Thank you.

                         EGYPT AND HUMAN RIGHTS

    Senator Leahy. I am sure you had a lot of meetings with the 
Egyptian authorities on human rights concerns. How did they 
respond? Was it useful?
    Mr. Malinowski. Well, my job was talking to authoritarian 
Governments around the world. And I have to say the meetings 
with the Government of Egypt were amongst the least productive 
and most unpleasant in my time at the State Department. That 
there are a lot of Governments around the world that do things 
we don't like, but you can have a thoughtful and intelligent 
conversation, intellectually challenging where you are talking 
to somebody who you feel like they have got the best interest 
of their country in mind, but they have a different vision for 
how to achieve them. And in the case of Egypt, it is just 
angry, rude denial of all problems and how dare you, U.S. 
Government official, raise these things with us and where is 
our money? Thank you very much. Goodbye.
    Senator Leahy. That is giving them the benefit of the 
doubt.
    Mr. Malinowski. Yeah. I don't have to be as diplomatic 
anymore as I used to be. And, you know, this is why I have come 
to the conclusion that probably more endless hours of attempted 
persuasion are not going to get us very far, that what we need 
with the Government of Egypt is a stepping back, a bit of a 
time out where we get out of this entitlement mentality where 
they think that every part of the relationship is something 
that we owe them. And we step back and try to design a 
relationship and an aid program that actually is there to do 
something positive rather than just an aid program that we 
provide because of what we fear they will do if we somehow cut 
them off. And----
    Senator Leahy. When I express concern about human rights, 
they say, ``Look how much we are doing against ISIL in Iraq, 
Syria, Yemen.'' Are they?
    Mr. Malinowski. Well, certainly not in Syria, certainly not 
in Yemen. They are fighting ISIL in the Sinai, but as we were 
discussing, in a manner that is probably making the problem 
worse, not better. They face a very, very real genuine serious 
security threat. Their soldiers, their police are getting blown 
up. There are attacks in Cairo and other Egyptian cities. I 
would like to be able to help them with that threat. I would 
help any country facing that threat.
    But what they have been absolutely resistant to doing is 
taking the advice that our military and our national security 
professionals have tried to offer with the equipment, with the 
training that our aid pays for. And so you see these very ham-
handed tactics that, again, make the problem worse.
    Senator Leahy. Chairman, my time is up, but Dr. Dunne and 
Mr. Abrams, my staff gave me a summary of everything you have 
already said and I was not only impressed, but I am very 
appreciative of it from both of you. Thank you, Mr. Chairman.
    Senator Graham. Thank you, Senator Leahy.
    Senator Moran.

                       U.S. ASSISTANCE FOR EGYPT

    Senator Moran. Mr. Chairman, thank you very much. Thank you 
all for joining us this afternoon. I will try to do two or 
three quick questions. What is the consequence to an alteration 
of the aid we provide Egypt and the relationship between Egypt 
and Israel? The historic connection there exists. Would you 
expect any consequences today if we alter the aid that we 
provide Egypt?
    Mr. Abrams. Well, I would not, Senator. We saw even during 
the Morsi period when there was some fear that he would 
completely change the relations with Israel, he did not really 
touch that. Good relations with Israel are in the interests of 
Egypt. The army understands that. They are getting help. As 
Senator Graham was mentioning, they are getting help in the 
Sinai, so I think the answer is no impact.
    Senator Moran. Okay. Anyone disagree? Yes, Ms. Dunne.
    Ms. Dunne. Well, I don't disagree, but I would like to add 
something, Senator. Look, I think that there is a good and bad 
side to the Egyptian-Israeli relationship. The good side is the 
military to military and security to security cooperation. The 
not so good side is the civilian side of it and the people to 
people side, which is very weak and very cold. And but I agree 
with Mr. Abrams that the aid that the U.S. provides no longer 
drives this.
    And I would point out that there was a period during the 
Obama administration shortly after the military coup of 2013 in 
which much of the military assistance was suspended for more 
than a year. I mean, that was the heyday of Egyptian-Israeli 
relations, so I think that really proved the point that the 
relationship now has its own logic, its own dynamic.
    Senator Moran. Thank you. I was looking for that kind of 
reassurance.

                        EGYPT AND CIVIL SOCIETY

    Mr. Malinowski, you indicated about what is occurring in 
regard to NGOs and Senator Graham followed up a bit on that. 
What is the rationale? What benefits the Egyptian Government in 
restricting NGO activity? Why is that a benefit to them?
    Mr. Malinowski. Well, parts of it are more logical in a 
nasty way than others. Certainly, if there is an NGO that is 
working on anti-torture and your police and security forces are 
engaged in torture, then you may not want that NGO running 
around and making its reports. NGOs that work on press freedom, 
on human rights issues, on any matter or anti-corruption, very 
important. Any matter on which the Government is likely to be 
exposed for doing bad things. It is natural that in an 
authoritarian state like this would want to bring those kinds 
of NGOs under control.
    What is interesting and perhaps a bit less obviously 
rational is that this crackdown has encompassed not just 
organizations working on what you might think are politically 
sensitive issues like the ones I mentioned, but virtually all 
NGOs that operate independently from the state.
    One of the problems we had last year in our ESD Program is 
we had an NGO called RTI, which is one of the big sort of U.S. 
AID implementers that was working on education programs in 
Egypt--totally innocuous, non-political. And that organization 
became subject to a massive campaign of public vilification in 
the Egyptian state media. They are corrupting our youth. They 
are spreading homosexuality. They are doing this and that. All 
part of this larger campaign against foreign and particularly 
American funding of NGOs.
    So the Government uses this kind of nationalism, this anti-
Americanism, to vilify NGOs of all stripes. And in that case, 
it resulted in Welfare Secretary Kerry pleading with General 
el-Sisi, ``Please, take our aid. Do us the favor of taking our 
money?'' And in the end, they would not do it, or they were 
willing to take it if we just wrote them a check, but they did 
not want us to do it through an independent NGO. And one of the 
best decisions we made was to say, ``All right. To heck with 
it. We are going to spend that money in Tunisia, in Iraq, in 
Syria, and places where we have equally pressing interests, but 
partners who want to work with us.''
    Senator Moran. Thank you very much.

                            EGYPT AND RUSSIA

    Mr. Abrams, you mentioned that Egypt is purchasing Russian 
military equipment. Russian special forces have been dispatched 
to the western desert in Egypt. Since intervening in Syria, 
there has been a lot of concern about Russia asserting itself 
in the Middle East. In changing how we provide aid, are we 
giving Russians opportunity for more influence in Egypt and in 
the region as a whole? What is the consequences to Russia and 
its influence based upon decisions we might make?
    Mr. Abrams. I think one would have to say that there would 
be something of an opening for the Russians. Unlike the Gulf 
states which are giving tens of billions of dollars or the 
United States, we give about a billion and a half a year. The 
Russians are not going to give them that kind of money, but 
they would be willing to make loans and sell arms and equipment 
and they would throw their weight around in Cairo if they see a 
weakening of the U.S.-Egyptian relationship.
    The thing is, you know, they cannot really replace us in 
terms of economic aid, in terms of military aid, in terms of 
technical assistance, but I think we would have to acknowledge 
that you might see a kind of resentful Government of Egypt 
talking to the Russians more. They are doing--for the first 
time in history, they are doing now a military exercise with 
the Russians in the western desert and they are doing that 
already when the aid has not been cut back a cent. You might 
see more of that.
    Senator Moran. Thank you.
    Thank you, Mr. Chairman.
    Senator Graham. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and thank you for 
holding this hearing, both you and Senator Leahy, and to all of 
our witnesses for your testimony.

                            EGYPT AND RUSSIA

    Just to follow up a little bit on Senator Moran's question, 
might we expect that Sisi would go back to the days of Nasser 
where Egypt played off Russia against the United States in 
terms of future assistance, Mr. Abrams?
    Mr. Abrams. I think you would see him threatening to do 
that. I think you would see that in the state press. It is hard 
for them. I mean, you know, the whole military now after all 
these decades is really equipped with American stuff. Now, they 
are starting to diversify with these more recent purchases, but 
I think you would certainly hear, if you will, threats of doing 
that. And the Russians would love to take advantage of this. As 
we have seen in Syria, they would like to reinsert themselves. 
For Putin, this would be a dream come true. So I don't--I think 
we have to acknowledge that there is a danger of the Egyptians 
moving in that direction.
    Senator Shaheen. Did either--did you want to comment on 
that, Mr. Malinowski?
    Mr. Malinowski. Yeah. I mean, I agree with Mr. Abrams. And 
they will if we let them, in a way. I mean, it is an old game, 
right? And we remember that game in the Cold War where all 
kinds of authoritarian countries in the developing world would 
play us off against the Soviet Union. If you are not nice to 
us, we will go to Moscow or we will go to Beijing.
    And I hope we don't allow ourselves--this is a much bigger 
question than just Egypt. In this era of unfortunate great 
power, resume great power competition, I hope we don't allow 
our decisions to be influenced too often by that kind of 
calculus because all we would be doing is empowering people 
like Sisi to get what they want by making that trip to Moscow 
and being pictured with Putin and then scaring us into giving 
him more. I don't think that is in our interest.
    Senator Shaheen. Dr. Dunne, did you want to add something?
    Ms. Dunne. Yes. Thank you, Senator. I just wanted to add 
that I think this is already happening, in effect, and I think 
it will happen even if we continue providing the military aid 
at the full level, that clearly President Sisi admires Putin a 
great deal, approves. He said openly from the beginning that he 
approved of the Russian intervention in Syria and perhaps would 
feel the same way about Libya, that he is ramping up the 
relationship with Russia in a number of ways. So I think he is 
going to move forward with that relationship even if we provide 
all the aid.
    Senator Shaheen. Thank you.

                       EGYPTIAN VIEWS ON PROGRESS

    To follow up, Dr. Dunne, I was struck by your testimony 
where you point out that what under Sisi Egypt is moving to a 
state where even more so than under Mubarak the interests of 
the few are what overrides decisionmaking as opposed to the 
interests of the many. Remembering the press reports about the 
brief time in which the Muslim Brotherhood controlled Egypt, 
and there were a number of reports about mainstream Egyptian 
society. I am probably using the wrong term there in terms of 
identifying who was concerned about that, but there were 
definitely reports that there were many Egyptians who were not 
happy with that situation and who were feeling relieved when 
Sisi actually took back control in Egypt.
    So to what extent do we think the Egyptian people are happy 
with what Sisi is doing and the direction that he is heading 
and how do we speak to the people of Egypt in terms of the 
support that we want to provide?
    Ms. Dunne. Thank you, Senator. Look, I think that it is 
certainly true that while Mohammed Morsi of The Muslim 
Brotherhood was president of Egypt, it was a very brief time. 
It was a year. You know, there were concerns among more secular 
Egyptians who don't consider themselves Islamists that the 
Brotherhood would sort of try to bring about different 
expressions of Islamic law or things like that. There 
definitely were concerns.
    Now, the Brotherhood through Morsi was in power a very 
brief time and, frankly, they did not have time to do any of 
that. And we can only kind of imagine what they would have 
done. What they did do, which Senator Graham indicated earlier, 
was to, you know, overplay their hand and they did a number of 
undemocratic things. They sort of manhandled the Egyptian 
judiciary and forced through a constitution that a lot of 
Egyptians did not agree with, right?
    So it is true. There was a lot of public resentment and 
opposition to Morsi, but I think unfortunately what the 
military did was use that to not only remove Morsi, but to end 
the democratic transition. And that is--I do not think that is 
what most Egyptians wanted. You know, people went out in the 
millions in June 2013 calling for a new presidential election. 
They wanted a chance to vote again on whether Morsi should 
continue his term or not. That is not what they got. They got 
an end to the whole thing and a restoration of military rule in 
a much more direct and brutal way than they had under Mubarak.
    Sisi is growing increasingly unpopular. There is not much 
polling in Egypt nowadays, but the little there is shows that 
because of his failure to deliver what he promised, either in 
terms of security or in terms of improving the economy, 
Egyptians are becoming disenchanted. But at this point because 
he has thrown so many people in prison and eliminated so many 
opposition political forces, they really do not have many 
alternatives from which to choose.
    Senator Shaheen. Thank you.

                         EGYPT AND HUMAN RIGHTS

    Mr. Malinowski, the recent visit by President Sisi saw the 
White House saying that they did not want to make human rights 
an issue, a public issue. They preferred to work behind the 
scenes. President Trump suggested that. Is that a good approach 
for us to be taking when it comes to the human rights issues in 
Egypt?
    Mr. Malinowski. You will not be shocked to hear me say no 
and it is not just the impact on Egypt that I am concerned 
about. I am somewhat pessimistic about our ability to influence 
Egypt in any fundamental way right now. But when I was 
Assistant Secretary, I would often find in traveling around the 
world in Africa and Asia people would throw certain emblematic 
examples of American relationships with other countries in my 
face, and Egypt was one of them. Oh, you know, you are here. 
You are criticizing us. You are urging us to do this and that, 
but look, in Egypt you are propping up.
    Senator Shaheen. Right.
    Mr. Malinowski. And I would explain, look, we are not. You 
know, it is much more complicated and we are criticizing them 
and withholding some aid. But the point is that when the whole 
world sees the spectacle of the Egyptian general coming to the 
White House and being praised in such a way by the President of 
the United States and then the statement that we will not talk 
about human rights publicly. And I am afraid it affects 
perceptions of what we stand for in the hearts and minds of 
people in every part of the world in a negative way.
    I am glad they got Aya Hijazi out of prison and I applaud 
President Trump for bringing her to the White House when she 
returned. That was a good symbolic action. But the way that 
visit itself was handled, I was very sad.
    Senator Shaheen. Me too. Thank you all.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham, and Ranking 
Member Leahy for convening the hearing and for our assembled 
witnesses for testifying today. I must say that this is a very 
disheartening hearing. It is a reminder just how challenging it 
is for us to pursue our three goals of promoting regional 
security, supporting American values, and defending human 
rights in a country that has received more than $70 billion in 
U.S. bilateral aid over many, many years.
    And many of the topics I had thought I would address have 
already been discussed by others, so let me focus on a few 
specific questions. Given the broad and intense crackdown on 
human rights that has been going on under the current 
Government in Egypt, I am concerned about it undermining long-
term efforts to build any enduring political institutions or to 
successfully combat and defeat violent extremists.

                 U.S. ECONOMIC SUPPORT FUNDS FOR EGYPT

    So, first, there is a significant amount, if I understand 
right, of unobligated Economic Support Funds--I think something 
like $600 million. There were reports last year that these are 
funds that multiple organizations had not received as 
implementing partners of ours and never got final approval from 
the Egyptian Government to continue their work. Why is Egypt 
delaying these funds and why should we continue to provide 
funds when there is such a dramatic backlog? $600 million is 
not chicken feed. That is real money and could make a 
significant difference in a country that has so many basic 
challenges addressing the real human needs of its people. I am 
looking for any volunteer from the panel who wants to address 
that one.
    Ms. Dunne. Thank you, Senator.
    Yes. And, you know, unfortunately, there is a long history 
of real problems between the United States Government and the 
Egyptian Government in getting the economic support funds spent 
in a productive way.
    One thing that there have been disagreements sometimes 
about economic reforms that were needed. There has been 
Egyptian Government resistance, but then, you know, puzzlingly, 
even when sometimes there was agreement on steps to be taken, 
there was even, you know, specific programs agreed upon and 
signed and so forth with Egyptian ministries, there are times 
when the Egyptian Government then has obstructed the 
implementation of programs. I believe Tom Malinowski was 
referring to just such a program of educational assistance that 
was to have been implemented by RTI.
    And so I think what this gets down to is a couple of 
things. One thing is that there is a deep xenophobia inside the 
Egyptian Government, particularly certain parts of the Egyptian 
Government, the security establishment, and they fight very 
hard against engagement between--people to people engagement 
between Egyptians and foreign organizations, nongovernmental 
organizations and so forth. And they will try to block it 
because of their deep suspicion.
    The other thing is that basically there are parts of the 
Egyptian Government, they really want the aid in cash. And 
sometimes they will just try to stonewall programs in the hopes 
that it will eventually just be delivered in cash as cash 
budgets support with few or no conditions.
    So there is a long history of this. And if you would permit 
me, Senator, my own feeling about this is this could usefully 
be converted into something like, for example, a fund for 
scholarships, for university and vocational educational 
scholarships for Egyptians, for the kind of training that they 
need that perhaps could be implemented with a minimum of 
Egyptian Government involvement.
    Senator Coons. Interesting.
    Mr. Malinowski.
    Mr. Malinowski. Yeah. So a while back President Sisi made a 
speech which he mentioned a concept notice, well, that he 
referred to as fourth generation warfare. And what he meant by 
that, as other Egyptian officials explained in more detail, was 
an effort by the United States and other western countries to 
destroy Egypt from within--I am using their terms--by through 
these kinds of assistance programs, subverting Egyptian youth, 
spreading western ideals, democratic ideals, human rights 
ideals, et cetera.
    We had a talk with him about that during the former 
administration and about the broader problem of this anti-
American propaganda. And we did not hear as much of that 
personally from him subsequently, but certainly in the Egyptian 
state media, pro-Government media, these kinds of attacks on 
our aid providers, including RTI, continued to the point where 
it became very, very difficult for them to continue to do their 
work. They worried about the safety of their Egyptian 
employees, amongst other things.
    I totally agree that, you know, something like a 
scholarship program would be a great way to spend economic 
assistance money in Egypt. It would be the thing probably above 
all that ordinary Egyptians would appreciate. I am not sure if 
we could implement it because you cannot just do it remotely. 
You have got to have people there to do the selection and 
figure out, you know, who gets what. And I do not know if we 
can do that without risk.

                           MUSLIM BROTHERHOOD

    Senator Coons. I have just a minute and a half left, so let 
me--two other questions, and, Mr. Abrams, I will invite you to 
answer all of these in one move, if you could. Some have called 
upon the Trump administration to designate the Muslim 
Brotherhood as a terrorist organization and I would be 
interested, Ms. Dunne, if there is sufficient evidence to do so 
and what would the consequences be.
    And then last, Mr. Abrams, you might combine a comment on 
ESF with whether long-term stability in Egypt is possible 
without strengthening civil society. And I would be interested 
in hearing what concerns you have about the attack on civil 
society. Thank you.
    Mr. Abrams. Well, I just wanted to start by saying on the 
international cooperation question, part of the problem is the 
so-called Ministry of International Cooperation in Cairo, which 
is about the least cooperative agency on the face of the Earth 
when it comes to implementing American aid programs. I will 
leave the MB answer to others, but, no, you should not 
designate the Muslim Brotherhood as a terrorist organization. 
That would be, I think, a very foolish move.
    Egypt is not going to be stable if there is nothing in it 
but the army and the opposition to the army.
    Senator Coons. Right.
    Mr. Abrams. And if all of the civil society organizations 
that represent actually not just Egyptians, but represent 
American values as it turns out in Egypt like freedom of press 
and freedom of speech, freedom of association, free trade 
unions are crushed by the state that is going to weaken 
stability in Egypt not only in the long run, but I would say in 
the medium run.
    Senator Graham. Thank you. Ms. Dunne.
    Ms. Dunne. Briefly on the Muslim Brotherhood question, 
Senator. First of all, no, I do not believe the evidence 
exists. First of all, there is not anything really globally 
called the Muslim Brotherhood, but even let's just look at the 
Egyptian Muslim Brotherhood itself. I do not think the evidence 
exists that they are carrying out actions that meet the U.S. 
legal standard of terrorist activity.
    Second of all, I would say that I think if the United 
States decided to designate regardless even without the 
evidence, it would be handing a major victory to ISIS because 
they are the ones who have argued that, you know, only violence 
works and therefore that those Islamists who tried to pursue 
change through political or other means were fools.
    Senator Coons. Thank you very much. I appreciate the whole 
panel. Thank you, Mr. Chairman, for holding this hearing.
    Senator Graham. Senator Daines.
    Senator Daines. Thank you, Mr. Chairman, and thank you to 
the panel for coming today. Foreign assistance can serve as an 
effective tool of American foreign policy and advance U.S. 
interests abroad, whether it be humanitarian aid or economic 
and military support. That being said, it is essential the 
programs are administered in open, transparent, and accountable 
fashion that minimizes the potential of running into any 
consequences or use by inappropriate recipients.
    The significance of accountability was further highlighted 
by the recent horrific terrorist attacks on Coptic Christians 
and others in Egypt. Ensuring the U.S. taxpayer dollars and 
equipment does not end up in the wrong hands is certainly of 
utmost importance.

                   SCENARIOS FOR EGYPT'S DEVELOPMENT

    Dr. Dunne, in terms of Egyptian political stability, what 
do you see as potential best and worst case scenarios for the 
next 2 to 3 years?
    Ms. Dunne. Thank you, Senator.
    Look, the best-case scenario would be that, you know, some 
sort of a return to a more open political process in which more 
people can participate, a turn away from repression and human 
rights abuses, a change in the economic policies towards 
something that is a little more private sector oriented and 
oriented toward generating jobs for ordinary Egyptians. I wish 
I thought that was a likely scenario, but I have not seen any 
indications that things are going that way.
    The worst-case scenario, you know, there is a possibility 
of sort of political unrest similar to what happened in 2011. 
What is even worse than that though, would be if the insurgency 
that is based in Sinai and the individual cells related to ISIS 
that we see starting to pop up in the Egyptian mainland were to 
really take off, you know, into a kind of--a larger insurgency. 
And that is my fear about the Egyptian Government's approach 
right now, that they are actually driving towards this 
insurgency becoming a much larger thing and really 
destabilizing the country.

                      UPCOMING EGYPTIAN ELECTIONS

    Senator Daines. Thank you. So when you think about the U.S. 
relationship with Egypt and particularly the continued U.S. 
support for President Sisi, what are the potential benefits as 
well as the risks ahead of the next Egyptian presidential 
election?
    Ms. Dunne. Yes, Senator. As you point out, so President 
Sisi's term ends about a year from now in May of 2018. And I do 
think the United States has to be careful about the signal that 
we send, that we should be supporting Egypt as a nation, the 
Egyptians as a people, and making a vote for a positive future 
for Egypt without endorsing necessarily President Sisi himself 
or the specific policies that he is pursuing because many of 
them are quite troubling.

           U.S. FOREIGN MILITARY FINANCING PROGRAMS FOR EGYPT

    Senator Daines. Mr. Abrams, on your testimony, you state 
that the Egyptian military remains a force designated--or 
excuse me--designed to conduct conventional war, not to fight 
terrorism. With that in mind, the previous administration 
proposed to require military assistance to Egypt to be directed 
to be used for, and I will quote, ``counterterrorism, border 
security, Sinai security, and maritime security.'' Are these 
appropriate and effective conditions?
    Mr. Abrams. I think it is the right idea. I think the 
problem in part is that that may be what we direct our aid to, 
but if the Egyptian military is meanwhile buying submarines 
which they do not need to combat terrorism, buying high 
performance combat jets which they do not need to combat 
terrorism, they are wasting an awful lot of the resources. So 
we are pouring it in, but they are pouring it out on the wrong 
end.
    But I think what the Obama administration did in trying to 
push them in that direction is the right thing to do and I 
would hope that the Congress would continue it.

                  IMPROVING U.S. ASSISTANCE FOR EGYPT

    Senator Daines. So along that line then, what other 
conditions might you recommend to ensure that U.S. assistance 
is used effectively and does advance our interests?
    Mr. Abrams. First, that we continue to insist that it be 
used on a certain kind of program, a certain kind of weapons 
system. I also think they need more training to do this in a 
way that suggests that they are killing terrorists rather than 
civilians.
    The Egyptian military has said--it is in the testimony--
they have killed about 2,500 ISIS people in Sinai and captured 
2,500. That is 5,000. But the CIA estimates there are only 
between 500 and 1,000 anyway, so these numbers are not 
reliable. And I think we ought to have some conversations with 
the Egyptian military in which they are more honest with us 
about what they are doing and in which they are not creating 
jihadis by attacking civilians in Sinai, creating sympathy for 
the Sinai province of ISIS.

             IMPORTANCE OF EGYPT TO U.S. NATIONAL INTERESTS

    Senator Daines. So many of us were back home the last 
couple of weeks and if you talk to the men and women on the 
street and if they were here in this and were asked the 
question, ``Are U.S. interests, are they served by sending U.S. 
taxpayer dollars to Egypt and why should America care?'' I will 
let Mr. Abrams answer that. How would you respond then talking 
to the person on the street as oftentimes we are having to 
justify when we go back home----
    Mr. Abrams. Yeah.
    Senator Daines [continuing]. The significant amount of 
dollars that are sent overseas.
    Mr. Abrams. The latter part, I think we can say, is in a 
sense easier. We have learned the hard way that terrorism that 
emerges in the Middle East does not stay in the Middle East. So 
we are talking here about terrorist groups, the strength or 
weakness of terrorist groups that seek ultimately to attack the 
United States.
    Now, whether $1.3 billion for Egypt, looking at the global 
question of combatting terrorism, whether $1.3 billion for 
Egypt can really be defended today I think is a lot harder to 
explain to your constituents.
    Senator Daines. Dr. Dunne, Egypt's economy has grown in 
recent decades. You pointed that out. It still faces challenges 
in private sector growth, unemployment, especially for young 
people, Egyptians under the age of 30. How would you recommend 
the United States help boost Egypt's economy and do you see 
opportunities in the ag and potentially natural resource 
sectors?
    Ms. Dunne. Thank you, Senator.
    So I have already mentioned that I do think the United 
States should support human development, the development of the 
Egyptian labor force, so young Egyptians coming into the market 
have good skills through our education, you know, which is 
highly valued.
    On the job creation side, you know, we really have this 
problem with Egyptian Government policies not supporting--not 
changing their policies in such a way as to support the private 
sector small and medium enterprises. It could be the 
agricultural sector is one of the promising sectors in Egypt.
    So what we can do, I think we have been trying to do some 
things through the Egyptian American Enterprise Fund. The 
United States, you know, has established this fund and I think 
it is starting to do some things that set a good example of how 
one would encourage small and medium enterprises and so forth, 
but admittedly, this is a very, very tough one. And several 
administrations have tried and not been successful in getting 
the Egyptian Government to change its policies in such a way as 
to really generate jobs. It is a very tough one.
    What we can do is try to set a good example and do the best 
thing we can do, a little bit of good with the amount of aid 
that we are comfortable providing.
    Senator Daines. Thanks, Dr. Dunne. Thank you, Mr. Chairman.
    Senator Graham. Thank you.
    Senator Van Hollen. Thank you, Mr. Chairman, and thank you 
all for your testimony today.
    And, Dr. Dunne, I think you are right on the mark when you 
said there is absolutely no way the Egyptian people bargained 
for the kind of repressive regime that they have today, 60,000 
political prisoners, journalists being locked up. That is not 
what the Egyptian people asked for.
    I can also sense all of us are obviously frustrated because 
we are struggling with how we can better use our leverage and 
influence with Egypt, which over a period of time has been a 
close ally of the United States. And I think you all made the 
case very well that the United States is less reliant on 
Egypt's sort of standing in the region. I think it is also fair 
to say from Egypt's perspective, they are a little less reliant 
on the United States given the amount of money they are getting 
from the Gulf states and some other potential limits.
    That is not to say we do not have leverage. So this 
subcommittee is going to have to make specific decisions on 
where we go on military assistance and economic assistance. 
Thank you, Dr. Dunne, for your suggestions with respect to the 
economic assistance.

                          CASH FLOW FINANCING

    I would like to get from all of you where you stand on the 
following things. Should Congress put in a restriction that 
continues the Obama's administration's prohibition on the cash 
flow financing? Should we put that in the legislation? Yes? All 
three yes. Okay.
    Now, Senator Daines raised the question about limiting the 
military assistance to the four pillars that the Obama 
administration had laid out, the counterterrorism, border 
security, Sinai security, maritime security.
    Mr. Abrams, you pointed out that there is a lot of 
flexibility in those categories. Based on your testimony, it 
sounds to me like you all might support actually a tightening 
of those categories and making it even more focused on 
counterterrorism in the Sinai, maybe some strict border 
security type actions. Is that the case?
    Mr. Abrams. Yes.
    Senator Van Hollen. All right.
    Mr. Malinowski. Yes. And I would add access to the Sinai 
for our people. I would add for journalists. NGOs would be an 
important piece of this. I mean, if we are going to be serious 
about counterinsurgency, there has got to be accountability 
that goes with that. And one of the outrageous demands that we 
made, ``outrageous demands'' we made on the Egyptians was if we 
are going to be giving you all of this help in the Sinai, maybe 
you should allow our people to go there and see what is going 
on. And that was not received with great enthusiasm.
    Senator Van Hollen. I hear you.
    Dr. Dunne.
    Ms. Dunne. Yes. I mean, and look, you know, the GAO report 
from a year ago spoke about the very serious problems the 
United States has had with end use monitoring and human rights 
vetting that are required by our laws based on obstruction by 
the Egyptian Government. So I think we need to take another 
look at that and be serious about that, especially in view of 
these very troubling recent reports about extrajudicial 
killings.
    Senator Van Hollen. Got it. And would you all support a 
continuation of the 15 percent withholding unless there is a 
certification that the Egyptian Government is making progress 
toward more democracy and human rights?
    Mr. Abrams. Actually, I would raise because the last year 
has been really horrendous for human rights. So I would at 
least ask you to consider going to 20 or 25.
    Senator Van Hollen. Okay.
    Ms. Dunne. I would agree with that. And I think also that 
at a more basic level as long as we continue to keep the $1.3 
billion in FMF on sort of autopilot and they know that is going 
to be approved every year and then it is just a question of how 
do we do it, then that is another thing that sort of removes 
some U.S. leverage. I think it is time for a sort of ground up 
assessment of what is really needed to help Egypt effectively 
and in a way that we think we can monitor and respect our own 
laws and so forth in doing.
    Mr. Malinowski. I strongly agree with Dr. Dunne. Keeping 
the 15 percent is better than nothing, but I think a much more 
fundamental assessment is needed. The basic problem is that 
Egypt does not view this assistance as having a policy purpose. 
This is not money that America is giving us to help us achieve 
something. It is owed. It is part of a deal that was struck 
decades ago. And that mentality, I think, is what I could not 
explain to your constituents and that needs to be broken.
    Senator Van Hollen. Fair enough. So a provision extending 
the ban on the cash flow financing, conditions that limit the 
aid that we do provide, the military assistance that we do 
provide, to an even narrower category, and then expanding the 
withhold amount withheld or reducing the overall amount based 
on the current conditions. Would you look--in terms of the 
current conditions for withholding, do you have any suggestions 
there? Do you think that the criteria are the right ones?
    Mr. Malinowski. I think I would need to look at them again 
in light of what is happening on the ground right now. I mean, 
I think they are the right categories, but we always want to 
try to hone them to the daily realities.
    Senator Van Hollen. Okay. And so my last question is 
assuming the Senate accepts these recommendations and we move 
forward with these conditions, obviously the Egyptian 
Government will not like it, but what do you believe their 
reaction will be? Do you think that they will move forward with 
us?
    Using this leverage in the way that we are talking about, I 
assume your judgment is that this would be a sort of a moment 
where we say to the Egyptians, ``This is not on automatic 
pilot. We are serious about this.'' And that you believe that 
will have a--in the long-term, a beneficial result.
    Mr. Abrams. I don't think the Egyptians are going to walk 
away. The aid is still very significant and it is very 
significant for the military, which is President Sisi's base of 
support. And, you know, what will happen if you cut the aid, 
you, meaning the Congress, is that the administration will play 
good cop bad cop in what is potentially a very useful way.
    Ms. Dunne. And I would add to that, Senator, that clearly 
President Sisi is eager to have a good relationship with 
President Trump. He has sort of sought that avidly from the 
time of the campaign until now. And so--you know, and the 
administration has indicated that they are going to have a 
fresh look at aid. I was struck by the fact that during 
President Sisi's visit he did not get a promise, it seems, from 
the administration to keep aid on autopilot, so there is a 
moment here I think that can be used to redefine the 
relationship in a way that is more in our interests.
    Senator Van Hollen. Good. Thank you, Mr. Chairman. Thank 
you.
    Senator Graham. Thank you all for a very helpful hearing as 
we try to go forward. We are about to do, hopefully this week, 
fiscal year 2017, but we will take all of this in terms of 
fiscal year 2018. It is going to be a real budget struggle. We 
have got to find a way to replace the sequestration caps. A 29 
percent cut to the State Department is just unacceptable.
    The reason we had this hearing is that we all care. I care 
about Egypt. I want to have a good relationship with Egypt. 
What I see is disheartening. I am not asking Egypt to do what I 
am telling them. I am asking Egypt to listen to their people 
who went out in the streets in 2011, and to me, this is not 
what they bargained for. I don't think they got what they 
bargained for from Mr. Morsi and I don't think they are getting 
what they bargained for or hoped for from the current regime.
    As to the taxpayer dollars we have, we are obligated to 
spend them wisely consistent with our values. As to what Egypt 
might do, I don't know what they might do. I just know what we 
need to do. We need to reshape the relationship in a way that 
is sustainable. A good outcome for Egypt is a good outcome for 
us.
    What is a good outcome? That everybody is sharing the 
benefits or the economy, that the military is a strong 
institution, but it is not the most dominant player in the 
economy, and that political parties can form and people can 
have their voices heard without fear. These are simple things 
that we take for granted but have stood the test of time. And 
that is not the direction we are headed.
    As to what they might do with Russia or any other country, 
I just hope they understand that we want to be friendly, but I 
don't think it is wise to hook your wagon to Russian President 
Vladimir Putin. What he offers Russia over time will be 
rejected. It is just a matter of time before the Russian people 
realize that Putin has played them for a fool, ripped them off, 
put their country and their economy at risk. I hope Egypt will 
take a new direction, not march toward Putin, but march away 
from him. March back to the square where it all started.
    With that, the hearing is adjourned. We will have the next 
hearing on May 9 on democracy programs and sometimes later 
about the fiscal year 2018 budget.
    Thank you all for coming. The hearing is adjourned.
    [Whereupon, at 3:40 p.m., Tuesday, April 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
